<html>
<title> - THE RISE OF RADICALIZATION: IS THE U.S. GOVERNMENT FAILING TO COUNTER INTERNATIONAL AND DOMESTIC TERRORISM?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 THE RISE OF RADICALIZATION: IS THE U.S. GOVERNMENT FAILING TO COUNTER 
                 INTERNATIONAL AND DOMESTIC TERRORISM?

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2015

                               __________

                           Serial No. 114-27

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-916 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001














                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     4

                               Witnesses

Ms. Farah Pandith, Adjunct Senior Fellow, Council on Foreign 
  Relations:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Seamus Hughes, Deputy Director, Program on Extremism, Center 
  for Cyber and Homeland Security, George Washington University:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. J. Richard Cohen, President, Southern Poverty Law Center:
  Oral Statement.................................................    18
  Prepared Statement.............................................    19
 
 THE RISE OF RADICALIZATION: IS THE U.S. GOVERNMENT FAILING TO COUNTER 
                 INTERNATIONAL AND DOMESTIC TERRORISM?

                              ----------                              


                        Wednesday, July 15, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:18 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, King, Rogers, Miller, 
Duncan, Perry, Katko, Hurd, Carter, Walker, Loudermilk, 
McSally, Donovan, Thompson, Sanchez, Jackson Lee, Langevin, 
Higgins, Richmond, Keating, Payne, Vela, Watson Coleman, Rice, 
and Torres.
    Chairman McCaul. The committee is meeting today to examine 
the efforts of the United States Government to counter 
international domestic terrorism. I now recognize myself for an 
opening statement.
    Our Nation is grappling with a new wave of terror from the 
suburbs of Massachusetts to the streets of South Carolina. We 
have apprehended a string of assailants who, while living among 
us, plotted to cause mass harm in the name of their hateful 
ideology. Just days ago, U.S. authorities disrupted an ISIS-
linked plot to attack an American university with assault 
rifles and improvised explosive devices. The suspect planned to 
execute students and broadcast it live on the internet. Last 
month our Nation reacted with horror as another extremist 
launched an attack on Black worshippers at a Charleston church.
    Whether inspired by Islamic terror or white supremacy these 
assailants share one trait in common: They want to attack the 
innocent, intimidate our population, and coerce us in order to 
achieve their ideological and insidious goals. Both 
international and domestic terrorism and extremist groups are 
seeking to radicalize our citizens, and they have begun to 
master social media as a recruitment tool, placing people on a 
path of violence at an alarming speed. But we cannot bow down 
in the face of terror, and we must refuse to live at the mercy 
of fanatics. That is why we are here today: To confront the 
dangers we face, identify gaps in our defenses, and counter the 
viral spread of violent extremism.
    Americans are worried about a heightened threat environment 
and for good reason. The numbers are astounding. The number of 
post-9/11 home-grown terror plots in the United States has 
surged. In fact, there have been more U.S.-based terror plots 
in the first half of 2015 than any full year since 9/11. In 
particular, Islamist terror groups are on the march. The attack 
disrupted this week marks the 50th ISIS-linked terror plot 
against the Western world since early last year and the 12th 
inside of America. There have been more than 60 ISIS arrests in 
the last year. That is more than one ISIS arrest per week.
    These fanatics have warped a peaceful religion into 
deceitful propaganda designed to convince vulnerable young 
people to embrace inhuman barbarism. Their success in 
recruiting from within our own communities cannot be ignored. 
Since the beginning of 2014, we have arrested, as I said, more 
than 60 ISIS-inspired suspects in 19 States. The FBI, according 
to the director, now says that it has opened ISIS-related 
investigations in every single State. In just the past few 
weeks, we have disrupted heinous plots to behead law 
enforcement officials, to detonate explosives in New York City 
before the Fourth of July, and to conduct mass shootings of 
Americans. All the attack plotters were U.S. citizens.
    Extremists have also lured hundreds of Americans to try to 
join them on the battlefield in Syria, and at least one has 
already returned to our country and was arrested earlier this 
year while planning a terrorist attack on a United States 
military base. I commend the FBI and Homeland Security 
officials and State and locals for disrupting so many of these 
cases, but we are nowhere near close to reducing the threat. We 
are living in a new age of peer-to-peer terrorism: 80 percent 
of the ISIS-inspired Americans who have been arrested were 
recruited by the terrorist group over social media or gangs in 
on-line communications sympathetic to it. This is how extremism 
goes viral, on-line, and out of sight until it is almost too 
late.
    While we spend billions of dollars to detect and disrupt 
terror attacks, we have dedicated few resources toward 
combating the radicalization at the root of terror, and that is 
what countering violent extremism, or CVE, is all about. It is 
warning communities. It is about helping them spot signs of 
radicalization, training State and local law enforcement, 
combating extremist propaganda, and developing off-ramps to 
radicalization so we have an alternative to simply arresting 
young people who are preyed upon and recruited by terrorists. 
This is a crucial prevention aspect of counterterrorism.
    Sadly, while extremist recruiters are moving at broadband 
speed, we are moving at bureaucratic speed. The administration 
has not appointed a lead agency in charge of CVE and few 
resources or full-time personnel are even allocated to it. Our 
committee asked the top agencies responsible for CVE how much 
money and how many people have been assigned to the problem. 
They can only identify $15 million being spent and around 2 
dozen people working full-time to combat domestic 
radicalization. That is it. That means we have arrested twice 
as many ISIS recruits in the United States this year than there 
are full-time officials working to prevent ISIS from 
radicalizing Americans in the first place. In the high-threat 
environment we are in today, this is unacceptable. Following 
this hearing today, our committee will take up a bill crafted 
to elevate, accelerate, and streamline the Department of 
Homeland Security's CVE efforts to tackle both international 
and domestic terrorist recruitment and radicalization.
    It is time for us to come together on this issue in a 
bipartisan fashion. This is not a Republican or Democrat issue. 
The terrorists don't check our partisan affiliation. Ranking 
Member Thompson has agreed with me in the past that DHS has a 
vital role to play in CVE and made a point I find compelling 
when he said: Prevention is likely to be more cost-effective 
than surveillance, trials, or wars. I agree.
    So, with that, I want to thank the witnesses for joining 
us. I hope they will illuminate the gaps in our defenses and 
the importance of ramping up these efforts in this critical 
time on such a critical issue.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
    Our Nation is grappling with a new wave of terror.
    From the suburbs of Massachusetts to the streets of South Carolina, 
we have apprehended a string of assailants who--while living among us--
plotted to cause mass harm in the name of their hateful ideology.
    Just days ago U.S. authorities disrupted an ISIS-linked plot to 
attack an American university with assault rifles and improvised 
explosive devices. The suspect planned to execute students and 
broadcast it live on the internet.
    And last month our Nation reacted with horror as another extremist 
launched an attack on black worshippers in a Charleston church.
    Whether inspired by Islamist terror or white supremacy, these 
assailants share one trait in common: They want to attack the innocent, 
intimidate our population, and coerce us in order to achieve their 
insidious goals.
    Both international and domestic extremist groups are seeking to 
radicalize our citizens. And they have begun to master social media as 
a recruitment tool, placing people on a path to violence at alarming 
speed.
    But we cannot bow down in the face of terror, and we must refuse to 
live at the mercy of fanatics. That is why we are here today: To 
confront the dangers we face, identify gaps in our defenses, and 
counter the viral spread of violent extremism.
    Americans are worried about a heightened threat environment and for 
good reason.
    The number of post-9/11 home-grown terror plots in the United 
States has surged. In fact, there have been more U.S.-based terror 
plots in the first half of 2015 than any full year since 9/11.
    In particular, Islamist terror groups are on the march. The attack 
disrupted this week marks the 50th ISIS-linked terror plot against the 
Western world since early last year--and the 12th inside America.
    These fanatics have warped a peaceful religion into deceitful 
propaganda, designed to convince vulnerable young people to embrace 
inhuman barbarism.
    Their success at recruiting from within our own communities cannot 
be ignored. Since the beginning of 2014, we have arrested or charged 
more than 60 ISIS-inspired suspects in 19 States, and the FBI says it 
now has opened ISIS-related investigations in every single State.
    In just the past few weeks, we have disrupted heinous plots to 
behead law enforcement officers, to detonate explosives in New York 
City, and to conduct mass shootings of Americans. All of the attack 
plotters were U.S. citizens.
    Extremists have also lured hundreds of Americans to try and join 
them on the battlefield in Syria--and at least one has already returned 
to our country and was arrested earlier this year while planning a 
terrorist attack on a U.S. military base.
    I commend the FBI, Homeland Security, and State and local law 
enforcement for disrupting so many of these cases, but we are nowhere 
near close to reducing the threat.
    We are living in a new age of peer-to-peer terrorism.
    Eighty percent of the ISIS-inspired Americans who have been 
arrested were recruited by the terrorist group over social media or 
engaged in on-line communications sympathetic to it.
    This is how extremism goes viral: On-line and out-of-sight, until 
it's almost too late.
    But while we spend billions of dollars to detect and disrupt terror 
attacks, we have dedicated few resources toward combating the 
radicalization at the root of terror.
    That is what countering violent extremism--or ``CVE''--is all 
about. It is about warning communities, helping them spot signs of 
radicalization, training State and local law enforcement, combating 
extremist propaganda, and developing ``off-ramps'' to radicalization so 
we have an alternative to simply arresting young people who are preyed 
upon and recruited by terrorists.
    This is the crucial ``prevention'' aspect of counterterrorism.
    Sadly, while extremist recruiters are moving at broadband speed, we 
are moving at bureaucratic speed. The administration has not appointed 
a lead agency in charge of CVE, and few resources or full-time 
personnel are even allocated to it.
    Our committee asked the top agencies responsible for CVE how much 
money and how many people they have assigned to the problem. They could 
only identify around $15 million being spent and around 2 dozen people 
working full-time to combating domestic radicalization. That's it.
    That means we've arrested twice as many ISIS recruits in the United 
States this year than there are full-time officials working to prevent 
ISIS from radicalizing Americans in the first place. In a high-threat 
environment, this is unacceptable.
    Following this hearing today, our committee will take up a bill 
crafted to elevate, accelerate, and streamline the Department of 
Homeland Security's CVE efforts to tackle both international and 
domestic terrorist recruitment and radicalization.
    It is time for us to come together on this issue in bipartisan 
fashion. Ranking Member Thompson has agreed with me in the past that 
DHS ``has a vital role to play'' in CVE and made a point I find 
compelling: ``Prevention is likely to be more cost-effective than 
surveillance, trials, or wars.''
    I thank our witnesses for joining us, and I hope they will 
illuminate the gaps in our defenses and the importance of ramping up 
our efforts to counter violent extremism.

    Chairman McCaul. With that, the Chair now recognizes the 
Ranking Member.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    I thank our witnesses for appearing today.
    Last month, in the wake of a domestic terrorist attack on 9 
parishioners at the Emanuel AME Church in Charleston, South 
Carolina, I sent the Chairman of this committee a letter asking 
that this committee hold hearings on the threat of domestic 
terrorism. In that letter, I asked that Federal witnesses be 
invited to appear before the committee to testify about the 
threat from domestic terrorism and what the Federal Government 
is doing to counter the threat of extremist violence.
    I believe that this committee has a duty to conduct 
oversight of the Department of Justice's and the Department of 
Homeland Security's efforts and ask questions about how these 
threats are identified, mitigated, responded to on domestic 
terror threats. From my understanding, we invited, from my 
side, a witness from the Department to come and offer that 
testimony to us. To date, my understanding is a witness is not 
forthcoming.
    There are also overarching questions about the degree to 
which Federal efforts to counter extremist violence are focused 
on domestic terrorist threats. Unfortunately, today's hearing 
will not bring us any closer to getting answers to these timely 
questions, as I said, as none of the Federal Government 
witnesses are here to testify.
    That said, I appreciate the Chairman's willingness to 
engage on the subject of domestic terrorism and hold this 
hearing. I certainly hope that today's hearing will be the 
first in a series of hearings on domestic terrorism.
    Mr. Chairman, this committee has a history of holding 
topical hearings. We held hearings in the wake of the Garland, 
Texas, attack. Last Congress, we were holding hearings during 
the summer on the humanitarian crisis along the Southwestern 
Border. We also held hearings on the Ebola crisis. Therefore, 
it is not surprising that in the wake of the South Carolina 
shootings, the committee is now holding this hearing.
    Given that, addressing domestic terrorist threats is a key 
element of this committee's bipartisan oversight plan. We 
should be working on a bipartisan basis to make it a priority. 
The threat from domestic terrorism is real. According to West 
Point's Countering Terrorism Center, in the decade following 
the 9/11 attack, right-wing extremist violence resulted in the 
deaths of 254 people in the United States. Not surprisingly, a 
recent survey by the Police Executive Research Forum and 
Triangle Center on Terrorism and Homeland Security found that 
State and local law enforcement personnel are almost twice as 
worried about the risk of extremist violence by right-wing and 
anti-Government groups as they are from foreign terrorist 
organizations. So, for this Congress, every terrorism hearing 
held at the full committee level has focused exclusively on 
threats posed by foreign terrorist organizations. Foreign 
terrorist organizations, such as ISIL and al-Qaeda pose a 
significant danger to the United States. A number of domestic 
terror groups also pose significant threats. Unless we get 
serious about domestic terrorism, we run the risk of falling 
victim to what the 9/11 Commissioners call a failure of 
imagination.
    Like foreign terrorist organizations, domestic terrorist 
organizations vigorously recruit and spread propaganda through 
social media and in on-line chat rooms. Every day foreign 
terrorist organizations dispatch thousands of messages on-line 
to promote their violent terrorist ideology, domestic terrorist 
organizations do so as well. Over the past few years, sovereign 
citizen group and other anti-Government groups have 
successfully recruited new members through Facebook as well as 
extremist websites NewSaxon and Stormfront. Interestingly, in 
the past, whenever we have discussed overseas-based threats, 
there has been an almost exclusive focus on propaganda 
circulated by foreign terrorist organizations.
    However, according to the Southern Poverty Law Center, 
Stormfront posts their forums in over a dozen languages, and 
nearly half its traffic comes from outside the United States.
    Mr. Chairman, I agree with your statement. We are facing an 
enemy whose messages and calls to violence are posted and 
promoted in real time. Last month, on U.S. soil, approximately 
500 miles from the Capitol, we saw first-hand how chat rooms 
and the internet can spur acts of extremist violence by 
domestic terrorists when a man identified as 21-year-old Dylann 
Roof massacred 9 Black Christians in the historic Emanuel 
African Methodist Episcopal Church. Three days after the 
shooting, a racist manifesto, allegedly written by Roof 
surfaced on-line. In this manifesto, Roof admitted to gathering 
information from the Council of Conservative Citizens, a well-
known extremist group that has roots with the White Citizens' 
Councils, an associated network of White supremacists. 
Photographs of the alleged perpetrator with oppressive symbols 
of the Confederacy and the South African apartheid regime also 
surfaced on-line in the wake of the shooting.
    Even though the deadly attack in South Carolina is at the 
forefront of our minds, we cannot forget the fall of 2008 
attempt to assassinate President Obama that was planned by two 
white supremacists who were allegedly introduced on a social 
networking website. It is important that we find ways to 
counter violent extremism from both domestic and foreign 
terrorist organizations. The administration has tried to pursue 
this avenue, but unfortunately, we are still unclear on what is 
being done, particularly at DHS.
    DHS refuses to provide testimony to date, and without 
hearing directly from the agency about its vision and needs, I 
cannot support H.R. 2899, the legislation this committee is 
poised to consider later today. I cannot embrace the 
bureaucratic solution that Chairman McCaul is offering to the 
Homeland Security's challenge of extremist violence. We all 
have a responsibility to prevent terrorist attacks against 
Americans and on American soil, and our actions should respond 
to the current threat environment. Not doing so would be a 
disservice to ourselves and the American public.
    With that, Mr. Chairman, I yield back.
    Chairman McCaul. I thank the Ranking Member.
    Let me voice my disappointment that the Ranking Member is 
not supportive. I held this hearing in response to your letter. 
The Department witness, you are correct, is not here. But this 
hearing is entitled both to counter international and domestic 
terrorism--domestic terrorism. The bill that we are going to 
mark up later today, I would argue, almost expands the scope 
within the Department to not be faced solely on international 
foreign terrorism but domestic in response to the shootings in 
South Carolina.
    So I am a little bit perplexed at the position of the 
Minority side as to why they are not supportive of both the 
hearing and the legislation that we are going to bring forward 
later today.
    So, with that, I would like to introduce our witnesses. 
First, Ms. Farah Pandith, currently an adjunct senior fellow at 
the Council on Foreign Relations, senior fellow at Harvard 
University's Future of Diplomacy Project at the Kennedy School 
and, as of May 2015, a member of the Secretary of Homeland 
Security Jeh Johnson's Homeland Security Advisory Council. She 
previously served as a political appointee in the Bush 
administration and also the Obama administration. She was 
appointed the first-ever special representative to Muslim 
communities in June 2009 by Secretary of State Hillary Clinton.
    Next, we have Mr. Seamus Hughes, serves as the deputy 
director of the Program on Extremism at George Washington 
University Center for Cyber and Homeland Security. Previously, 
Mr. Hughes worked as a lead countering violent extremism 
staffer at the National Counterterrorism Center and as senior 
adviser for the U.S. Senate Homeland Security Committee.
    Last, we have Mr. Richard Cohen, currently an attorney and 
president of the Southern Poverty Law Center. Prior to joining 
the law center as president, he served as its vice president 
for programs, which includes the Intelligence Project and 
Teaching Tolerance, and practiced law in Washington for many 
years.
    So I want to thank all the witnesses for being here today. 
The Chair now recognizes Ms. Pandith for her testimony.

 STATEMENT OF FARAH PANDITH, ADJUNCT SENIOR FELLOW, COUNCIL ON 
                       FOREIGN RELATIONS

    Ms. Pandith. Good morning. Thank you to the House Committee 
on Homeland Security for inviting me to testify today. Chairman 
McCaul, and Members of the committee, it is my honor and 
pleasure to be here for this important discussion.
    My name is Farah Pandith, and I am an adjunct senior fellow 
at the Council on Foreign Relations and a senior fellow at 
Harvard University. My opinions are my own.
    My perspective is based on more than a decade directly 
working on issues of countering violent extremism while I was 
in Government serving at the National Security Council and at 
the Department of State as a political appointee for Presidents 
George W. Bush and Barack Obama.
    In my roles, most recently as special representative to 
Muslim communities, I focused on the impact of extremist 
ideologies on Muslim millennials. I engaged with communities at 
a grassroots level in more than 80 countries. In the Bush and 
Obama administrations, I pioneered efforts to push back on 
these ideologies on-line and off-line and saw the complex 
processes by which extremists prey on young Muslims, tear apart 
local communities, and threaten stability world-wide. Their 
ideology was present in every country I visited, and the 
domestic and international implications of this fact are 
playing out as we speak.
    Thus, I am pleased to be able to talk with you about what 
the United States Government has done and what we need to do to 
deal with the threat we face from extremist groups that use a 
corrupt and vile narrative claiming religious credentials for 
their political and ideological ends. In my submitted written 
testimony, I have argued that while our Nation has been aware 
that an ideological element is fueling the radicalization of 
Muslim youth, we have not yet employed an all-in strategy of 
hard and soft power.
    When we do this, we will see positive results, including a 
decrease in the number of recruits.
    The title of the hearing today asks if the United States 
Government is failing to counter terrorism. We know that 
without recruits, terrorist organizations can't survive. 
Therefore, is the American Government doing enough to stop the 
recruitment of young Muslims in our country and abroad? At 
worst, the answer is no. At best, the answer is, it depends. If 
we assess progress in terms of how many other 9/11s have 
happened on our soil, we have so far succeeded. If we assess 
progress that the number of Americans doing harm in the 
homeland in support of groups like ISIL compared to in support 
of other causes, we have so far succeeded. If we assess the 
progress as the number of American foreign fighters in Syria 
and Iraq compared to other Western foreign fighters, we have so 
far succeeded.
    But these measurements of success do not go far enough 
because we can't just look at the present. We must look at what 
we are doing to prevent the rise of radicalization in youth for 
years to come. This means the seeming success we have had will 
prove illusory over the longer term because we know that the 
ideology of the extremist is impacting kids as young as 10. 
These children and young adults will continue the cycle of 
violence and fear. The extremists are winning over youth from 
Detroit to Dhaka. They have a sophisticated, well-funded 
machine that is working 24/7 to persuade and provoke youth to 
be part of their team.
    The threat posed by extremists is comprised of the 
construction of physical and virtual armies. This is a far more 
worrisome threat than just a particular group because the 
attractiveness of this ideology and the tactics of recruitment 
have infiltrated a demographic the world over. We have not 
created the kind of machinery inside and outside of Government 
that can compete with the extremists at this moment. We have 
failed to give the right resources, commitment, and personnel 
to this century-changing phenomenon. Too little has happened to 
address the seeding of the ecosystem that has allowed the 
poisonous ideology to grow over several decades. Too little has 
been done to deal with a post-9/11 generational identity crisis 
that makes recruitment possible.
    The fact is, based on the thousands of conversations I have 
had with Muslim millennials globally, they are searching for 
answers to questions about their identity. Extremist narratives 
are filling the intellectual vacuum, and governments have been 
ill-equipped to deal with it.
    I know this might seem like gushy stuff. Government doesn't 
do identity crises very well. Still, we must reposition 
ourselves to confront the real issue facing us today, not the 
issue we wish we were facing. At one time, just a few years 
ago, al-Qaeda was the big threat. Today, that threat feels 
manageable in comparison with ISIL.
    What threat will we face tomorrow? What happens if there 
are more than one ISIL at the same time? If we want to create a 
new reality for our Nation and the world, we must go all in. We 
must confront the ideological threat with a strategy that 
reduces the number of recruits and prevents the virtual armies 
from being formed. I want to conclude with five points that 
should be part of our repositioning.
    First, focus directly on the global millennial generation, 
both men and women. Use digital natives to dramatically change 
the patterns of discourse within the Muslim communities. No. 3, 
invest significantly in soft power, not just hard power. The 
strategy must be integrated together, and we must go all in. 
No. 4, be concerned not just with individuals who leave home 
countries to fight in the Middle East or elsewhere but with the 
ideology that continues to spread among those left behind. 
Finally, fight extremism with a well-resourced team, the right 
personnel, a substantially-increased budget for soft power 
funding, and an entity in charge of the ideological fight that 
is accountable to Congress.
    Thank you very much for the opportunity, and I look forward 
to your questions.
    [The prepared statement of Ms. Pandith follows:]
                  Prepared Statement of Farah Pandith
                             July 15, 2015
    Mr. Chairman and distinguished Members of the committee: Thank you 
for inviting me to share my perspective and experience. My name is 
Farah Pandith, and for 11 years I served as a political appointee for 
Presidents George W. Bush and Barack H. Obama, most recently as our 
Government's former first-ever special representative to Muslim 
communities. I felt deeply honored to serve our Nation at the highest 
levels in a post-9/11 environment and to work on an issue that is, in 
my opinion, one of this century's most serious and misunderstood.
    I left Government in January 2014 to continue my work on countering 
violent extremism. I greatly respect both administrations in which I 
have served, but given what I have seen in more than 80 countries as 
special representative, as well as in 55 cities and 19 countries across 
western Europe as senior advisor to the assistant secretary of state 
for European and Eurasian affairs focusing specifically on countering 
violent extremism (CVE), I felt it was important to re-join the non-
Government sector so as to speak openly, clearly, and pointedly about 
the threat we are facing. I also wanted to help convince America and 
the world to do more to confront extremist ideology. (Let me be clear: 
Many kinds of extremist ideologies exist on our planet today. I'm 
referring to extremists whose vile and corrupt narrative claims 
religion for a specific political and ideological end.)
    I come before you with neither a partisan agenda nor any purpose 
other than to give my honest views on this vital issue. As of February 
2014, I have been affiliated with Harvard University's Kennedy School 
of Government where I maintain an affiliation. As of December 2014, I 
have been at the Council on Foreign Relations. The opinions I am 
expressing in both my written and verbal testimony are my own. Thank 
you for the opportunity to testify on the issue of the ``Rise of 
Radicalization: Is the U.S. Government Failing to Counter International 
and Domestic Terrorism?''
                        what threat do we face?
War of Ideas: the ideology of the extremists versus everyone else
    Extremist ideology is an insidious and contagious virus that has 
successfully moved across our planet, specifically targeting Muslim 
millennials. Although extremism is not a new threat, it has infected 
every region of the globe and continues to morph, taking on different 
forms in different places. Yet the result is always the same: Massive 
loss of life, destruction of modern cities and ancient sites, the 
seizure of territory, the erasure of existing borders, the targeted 
culling of minorities, the destabilization of entire regions, and the 
eradication of human rights.
    The War of Ideas today is far more deadly than it was in the years 
after 9/11 because the recruits--mainly Muslim millennials under the 
age of 30--are vulnerable to persuasion, purpose, and passion. More 
youth are becoming radicalized globally, enticed to join both virtual 
and physical armies. The extremists are outpacing and outmaneuvering us 
in the ideological space. To stop them, we must take courageous and 
intelligent action, applying known methods and deploying all of our 
tools, both hard and soft power. Unless we act decisively, surpassing 
what we've done since 9/11 to inoculate communities from Denver to 
Dhaka, we will face an even more serious situation globally. We are 
currently ``just'' primarily seeing the crisis the Middle East but one 
can imagine a terrifying situation where this kind of war is being 
fought in other theatres at the same time as well as an expanded and 
more frequent series of attacks from Stockholm to Sidney.
Vulnerable Communities: Listening to what the grassroots have to say
    The extremists--whether al-Qaeda, the Islamic State of Iraq and the 
Levant (ISIL), al-Shabaab, the Taliban, or Boko Haram--understand that 
in order to gain recruits, they must cater to their target demographic. 
The extremists are winning recruits because right now their narratives 
are louder and reach more youth than any other. At the core, extremist 
narratives are answering the key questions millennial Muslims are 
asking about themselves and their purpose.
    As special representative to Muslim communities, I met with 
thousands of Muslims over 5 years. I engaged with communities from 
Brazil to China, heard stories, and developed a new perspective on 
trends relating to Muslim youth. I had done this in Europe for 2 years 
right after the Danish Cartoon Crisis, talking with members of 
communities from Norway to Sicily and thinking that what I heard was 
unique to Muslims living as a minority (I was wrong). These two roles 
gave me unprecedented grassroots access in places senior U.S. 
Government rarely went. They provided me with an extraordinary ability 
to make connections and spot trends across a demographic rather than 
just a region, and to do so irrespective of who was in the Oval Office. 
(Again, I did this in both the Bush and Obama administrations).
    The realities I encountered flew in the face of all the theories 
and seemingly logical explanations then circulating about extremism. 
Experts cited the so-called Arab Spring, the lack of jobs and 
education, our foreign policy, our domestic policies, our immigrant 
narrative, our separation of church and state. Yet what young Muslim 
men and women were confronting--and still are confronting--was 
different and more unwieldy. Since 9/11, Muslim youth have experienced 
a profound identity crisis unlike any in modern history. They have 
craved answers, seeking purpose and belonging.
    Nearly every day since September 12, 2001, Muslim Millennials have 
seen the word ``Islam'' or ``Muslim'' on the front pages of papers on- 
and off-line. They have grown up scrutinized because of their religion, 
and much of this attention is not positive. As a result, they are 
asking questions like: What does it mean to be modern and Muslim? What 
is the difference between culture and religion? Who speaks for my 
generation? While members of earlier generations might have turned to 
close-knit families and communities for help answering such questions, 
Millennials are tuning in to unsavory figures encountered on the 
internet and in other venues. Extremists prey on young Muslims and 
offer ready-made answers designed specifically to appeal to this 
generation. They market their ideas with savvy and alarming expertise--
from magazines to apps, YouTube sermons to Hip-Hop and poetry.
    That is by no means all that's going on. Some Muslim women are 
becoming far more conservative across the planet, rejecting 
established, local traditions of dress and society. They are 
``veiling'' when their mothers and grandmothers did not. They are 
listening to radical sermons on satellite TV beamed from Pakistan and 
Saudi Arabia. They are downloading music, poetry, and blogs that 
celebrate isolation and hatred of the ``other.'' They are keeping their 
children away from people who are not ``like them.'' And most recently, 
some are joining the armies of ISIL. Because a mother is a child's 
first teacher, and because some women now wish join the fight, young 
women are in a position to make or break their succeeding generation.
    For the first time since 9/11, we are re-awakening emphatically to 
the growing threat posed by extremists. At the moment, we are 
rightfully concerned about the potential of radicalized youth returning 
from battlefields to conduct terrorist actions. But in addition to the 
short-term impacts on public safety, we should be concerned about the 
long-term ability of battle-hardened extremists to build new terrorist 
networks at home and extend existing ones by preying on youth. There is 
a critical ideological battle to be waged here. Extremists remain 
radicalized once they return. They are technologically savvy and 
understand how to use emotions to attract recruits. They also might 
command heightened and growing legitimacy in Muslim communities. Hard 
power responses such as retrieving passports are a start, but we need 
to do much more to prevent recruitment of new terrorists.
    Fortunately for us, the extremists possess a hidden vulnerability. 
Credible voices--those liked and trusted by Muslim youth--can win youth 
over with narratives that counter extremist messages. Who are these 
credible voices? They are not those of the United States Government. No 
government on earth--ours or any other--is credible among Muslim youth. 
Like any other kids on the planet, Muslim youth listen to their peers, 
are persuaded by popular ideas, and are passionate about belonging to 
something that seems real to them. To prevent recruitment of new 
terrorists, we must find new, innovative ways of boosting credible 
voices, helping them to drown out the extremists in the global 
marketplace of ideas.
    If we clamp down on recruitment, then before too long, ISIL and 
others will not have armies. Given that the radicalization of an 
individual takes place gradually, why haven't we done more to intercede 
proactively during the initial stages of ideological persuasion? Why 
are we only interceding much later by attempting to stop extremists as 
they seek to cross national borders? Recruitment is a relatively new 
phenomenon, but we certainly possess enough information 14 years after 
9/11 to address the issue and scale up counter-measures at the local 
level, both in our country and around the world. We must decide if our 
goal is merely to stop an immediate threat, or to stop recruitment from 
happening in the first place.
                           what have we done?
9/11 to Today: Setting up our defenses on soft power
    The U.S. Government has struggled since 9/11 to wage a ``war of 
ideas.'' After 
9/11, we attempted to engage in such a war against al-Qaeda and the 
Taliban. Seeking to thwart their recruitment efforts, we focused on 
countering their narratives of ``us'' versus ``them.'' These efforts 
took place under the umbrella of Countering Violent Extremism (CVE), a 
concept that has become fashionable as of late but that actually dates 
from the Bush administration. Back then, it was an upward struggle to 
get the inter-agency to buy into CVE. Most policy makers in our country 
and abroad couldn't envision how we could develop organic voices on the 
ground that could push back against al-Qaeda's ideology.
    Still, several visionaries did understand that although the U.S. 
Government did not have street cred with average Muslim youth, we did 
have the power to build platforms to raise up voices and build 
movements of credible voices. Thanks to the commitment and open-
mindedness of these visionaries, we seeded initiatives that allowed us 
to launch new efforts on the ground and created a road map of what was 
possible. We took risks and experimented. (During this time, very few 
European governments felt comfortable getting into an ideological 
battle, even though their communities were doing just that at micro 
levels. European governments were trying to find voices that had 
legitimacy and credibility, but as in our country, politics often 
prevented risk taking at the grassroots.)
    During the 2 years that I served as senior advisor in the EUR 
Bureau (2007-2009), we helped start many soft power initiatives and 
networks, demonstrating a proof of concept. Initiatives like Sisters 
Against Violent Extremism (SAVE) were designed in the image of Mothers 
Against Drunk Driving to be grassroots, local, and responsive. 
Recognizing that European Muslim youth needed positive role models, we 
created the first pan-European professional network that activated a 
new narrative and inspired others. By partnering with individuals and 
community groups across Europe, we managed to lift up voices of Muslims 
who had both influence within local neighborhoods and communities, 
establishing the basis for an empowering a grassroots countermovement 
in opposition of extremist manifestations and counter-extremist 
messages to share. We joined former extremists, victims of terrorism, 
entrepreneurs, bloggers, and women into layered networks dedicated to 
combatting the allure of the extremist narrative and ideology.
    When Secretary Clinton learned of our accomplishments in Europe as 
conveners, facilitators and intellectual partners, she asked me to take 
our activities global. As special representative to Muslim communities 
(2009-2014), I used the same approach I did in the Bush administration 
to mobilize Muslim youth. I worked with our embassies to create first-
of-a-kind global networks like Generation Change, a network of Muslim 
change makers who were committed to pushing back extremist ideology. I 
listened to what youth were saying about the changing nature of 
extremists' appeal and tactics and focused on helping connect social 
entrepreneurs, activists, and other organic voices. We also launched 
efforts like Viral Peace, a program to train credible voices to push 
back against extremists on-line. Further, we identified ``black holes'' 
where we knew more work had to be done, including the increasing 
phenomenon of the radicalization of women.
    What I was asked to do at State during the Bush administration was 
unique. At the time, forward-thinking policy-makers understood that 
America had to proactively engage with Muslim communities in Europe. 
You might remember the intense days after the Danish Cartoon Crisis 
when everyone--our Nation, as well as our European allies---was caught 
off-guard by the realization that something happening in Copenhagen 
could affect lives in Kabul. Sadly, we have seen this phenomenon play 
out all too often. A false rumor, a video, a preacher threatening to 
burn the Quran can all unleash unrest as well as violence in faraway 
places.
    What I was asked to do at State in the Obama administration was 
also unique and gave me a chance to work closely with my State 
colleagues to build out micro-scaled prototypes. It cemented my belief 
that the most innovative opportunities we have to defeat the spread of 
this ideology involve partnering with those outside of Government.
    We must now dramatically ``scale-up'' innovative, entrepreneurial 
CVE programs if we are to prevail. I'm not talking about engaging in a 
messaging war on Twitter. I'm talking about getting credible, local 
voices to inoculate their communities against extremist techniques and 
appeal. I'm talking about helping parents to understand extremist 
tactics so that they can educate their children about this threat. I'm 
talking about supporting the hundreds of grassroots ideas and 
initiatives in our country and around the world that reject extremist 
ideology. I'm talking about working closely with mental health 
professionals to understand the adolescent mind and to develop programs 
that can help stop radicalization. Ultimately, we need to monopolize 
the marketplace of ideas on-line and off-line, spawning credible voices 
that that give new agency and purpose to this generation.
    One lesson I have learned is that these local ideas don't require 
large budgets. They do, however, require support and a certain mindset 
from those at the top. We must allow for creativity, understand that 
not everything we try is going to bloom, and accept that we do not have 
to put the American flag on everything we do. When it comes to 
countering violent extremism, one size doesn't fit all. We have to 
listen to what communities are saying is going to make a difference and 
be flexible and inventive enough to help them do it. It is not ideas 
from Washington that can make a difference in Tashkent or Toronto.
    Make no mistake, CVE efforts are still very much in their infancy. 
Though our Government has tried to counter extremist narratives through 
formal channels, very, very little attention has been paid overall to 
CVE. We haven't approached the ideological war with the same resources 
or respect we did the physical war, devoting ourselves to an integrated 
strategy of hard and soft power. We did not ask the kinds of questions 
around the ideology that would have informed us of things to come and 
the global appeal, and we did not restructure ourselves to get ahead of 
the extremists. As a result, the extremist ideology has spread, leaving 
us where we are today: Facing a virtual army of recruits not just from 
other countries, but from our own.
                          what should be done?
ISIS and beyond: Going All In
    This year began with the attack on Charlie Hebdo, and just recently 
we watched the massacre in Tunisia. We have become all too familiar 
with gruesome images of beheadings and other atrocities, the 
destruction of human heritage, and the warnings of attacks on the 
homeland. Yet still we remain locked into thinking that we can deal 
with the extremist threat primarily through hard power alone. While we 
have seen an increase in the interagency conversation around the 
ideological war, and ``CVE'' is the currency everyone is floating, our 
overall strategy to defeat the extremists does not contain a sufficient 
soft power dimension.
    We can't create an ideological countermovement on the backs of a 
few isolated Government-funded programs. It requires much broader 
commitment and focus. Our strategy must be a cohesive, integrated, and 
comprehensive approach to the threat we face. We must wage a battle on 
all fronts with money, accountability, and experienced personnel. We 
must look at this like we would any other contagion, rooting out its 
hosts globally and destroying its defenses. The extremists seem all 
powerful, but they are not. We have yet to unleash the full power of 
our skills in the soft power space. When we truly go ``all in,'' we'll 
see how vulnerable the extremists really are.
    Principles for future action should include the following:
  <bullet> Investing significantly in soft power the way we did during 
        the Cold War. We must give soft power as much credibility as we 
        do hard power.
  <bullet> Focusing on millennials globally, as this is the demographic 
        from which the extremists recruit.
  <bullet> Creating a comprehensive, coordinated strategy that does not 
        skirt the ideological threat and that mobilizes all available 
        levers of power (again, as we did during the Cold War). Such a 
        strategy should incorporate lessons we've learned from the 
        ground up, and it should invest in local answers.
  <bullet> Adopting helpful and appropriate goals. The point here is 
        not to win a popularity contest--to ``win hearts and minds.'' 
        Rather, it's to get voices on-line and off-line to push back 
        against extremist messages. It's to flood the marketplace of 
        ideas with on-line and off-line counter-narratives articulated 
        by Muslims themselves. We need to act as convener, facilitator, 
        and intellectual partner to Muslim youth, bringing together 
        their great ideas and seeding them. This approach will hold far 
        more credibility in Muslim communities.
  <bullet> Publicly condemning countries like Saudi Arabia, Qatar, and 
        others that are igniting extremist ideology in a variety of 
        ways--through textbooks, radical preachers, and mosques that 
        promote hate and reject the diversity of Muslims around the 
        world (not to speak of other faiths).
  <bullet> Attacking extremist recruiting proactively rather than 
        relying on reactive and exponentially costlier ``hard power'' 
        interventions once military threats have already materialized. 
        Remember, without recruits, there are no troops.
  <bullet> Ramping up initiatives and knowledge about the 
        radicalization of women, and developing new approaches to 
        mobilize them against radicalism.
  <bullet> Creating awareness campaigns about radicalization the way we 
        do for diseases like AIDS or breast cancer.
  <bullet> Normalizing the conversation about extremism so that more 
        private-sector money flows into soft power initiatives. 
        Government can do this by sharing information about what we are 
        seeing and convening helpful players outside of Government.
  <bullet> Anticipating extremist ideological attacks, and keeping an 
        arsenal of strong counter-actions at the ready. In this field, 
        there are few real surprises. We can easily predict the kind of 
        tools extremists will use against us. We ought to be ready with 
        swift responses, not wait days and weeks to react.
  <bullet> Creating senior-level positions across Government at home 
        and abroad to focus on CVE, making the individuals in these 
        positions accountable to Congress.
  <bullet> Producing a strategy that not only has short-, medium-, and 
        long-term goals but identifies the layers of elements in the 
        ecosystem that allows the ideology to grow.
  <bullet> Including the mental heath components as well as millennial 
        data into our assessments and strategy.
    The extremists are both evil and intelligent. They are doing 
everything they can from all angles to re-make the world according to 
their apocalyptic vision. We understand this, but we're not doing 
enough to neutralize their methods. As a CVE pioneer, I took part in 
policy conversations at the highest level, and I also engaged at the 
grassroots with the most vulnerable of communities. I know first-hand 
what we can and cannot do. As I watch this horrific era of ISIL, I am 
convinced that we can and must do more.
    In the years since 9/11, a great deal of politicking has taken 
place around the issue of radicalization, and unfortunately this has 
impeded an honest assessment of how to mobilize communities themselves 
to prevent young Americans from being seduced. Critics of CVE bemoan a 
lack of science supporting measures that might fight extremist 
ideology. They want proof that counter-narratives work and they want 
any approach to stemming the appeal to produce measurable results. But 
are we supposed to do nothing and let the extremists blast the 
marketplace on-line and off-line with their poison, waiting for a 
crisis to respond? Efforts to mobilize credible voices on- and off-line 
offer us hope. In the case of on-line recruitment, data exists that can 
help us evaluate the effectiveness of counter-measures. To evaluate 
off-line CVE measures, we can seek out anecdotes confirming whether 
one-on-one interactions or specific programs have moved kids from 
interest in extremism to rejection of it. The science may not be 
perfect, but doing nothing is not an option and we need to be more 
proactive, not less. We can take action without infringing on civil 
rights and civil liberties, and we can partner with coalitions whose 
members understand that the predators trying to win over our youth are 
a problem for all of America, not a specific community.
    Our efforts to deal with the ideological threat have of course 
evolved since 9/11. The trajectory of U.S. Government thinking has gone 
from ``winning hearts and minds'' and a Rapid Response Unit to hashtags 
and a Global Strategic Communication Center. And yet, we continue to 
come up short. Formerly many didn't accept CVE, but now they make the 
mistake of calling everything CVE. We have tried to bracket the threat 
around terrorist groups and regions, building out coordination in 
artificial ways. We have never given real money, real strategic 
importance, or real personnel a chance to do all we are capable of 
doing to win this ideological war. In some ways, are having the same 
conversations we did right after 9/11--they seem new to many because we 
have not shared expertise and background, and new personnel insist 
there is nothing to be learned from those who worked on this before 
them. It is astounding that even in the aftermath of the President's 
Summit on CVE, an important convening and re-energized moment, we are 
still locked into an inter-agency that is uncoordinated and under-
resourced. Very little innovation exists around the ``how'' of building 
initiatives or what those initiatives might be. Further, we are 
insisting that this is a messaging war when it is much more than that.
    We stand today at a crossroads. We possess a great deal of 
information about how people get radicalized, why they get radicalized, 
and what can prevent them from getting radicalized. We can either 
continue to do CVE in an episodic way without accountability or 
imagination, or we can put all the pieces together--the ecosystem, the 
new counter-narratives and tools, and the specific demographic--into a 
cohesive global strategy that mobilizes both hard and soft power.
                             what's coming?
    The ideological threat from extremists will impact us in several 
ways in the years ahead. First, we know that the extremists are already 
recruiting among the 4 million refugees (including a large number of 
youth) who have fled fighting in Syria and Iraq. We can not yet know 
the numbers or the impact that such recruitment will have on that 
region or other parts of the globe, but clearly this represents a 
dangerous and compelling threat.
    Second, while governments are still trying to understand the 
extremists' recruitment of women, we are learning of children already 
training to be ISIS warriors. Referred to as ``cubs,'' these children, 
once grown, will comprise a massive untested demographic. What do we 
know of adults that have been brainwashed to be violent when only 7 or 
8 years old?
    Third, the New York Times recently highlighted a story of a young 
American girl from rural Washington State who was seduced by the 
ideology of an ISIS recruiter. Her story shocked and alarmed many 
Americans. Similarly, the parents of an American teen raised in the 
suburbs of Chicago were shocked to learn that their son had been 
recruited by ISIS. These stories are not isolated incidents. We are 
seeing a more robust conversation from Massachusetts to California 
around the radicalization of Americans, but importantly, we are also 
seeing a more open conversation about how to stop it on the home front. 
As we look at the next chapter of the extremist threat, we know home-
grown radicalization along with so called lone-wolf attacks on the 
homeland will constitute a serious threat.
    Fourth, as we have seen in the last couple of years, the extremists 
are changing and combining allegiances. This may continue, and we may 
also see new groups emerge as technology gets more sophisticated, 
extremists get even smarter in their recruitment efforts, and their 
target demographic grows larger. What will this mean for policy makers 
as we build out our strategy and understand the threat we face?
    Finally, there has been much discussion around foreign fighters 
returning. We do not currently know what the impact will be on their 
ability to recruit and the aftermath of their particular journeys.
    This hearing seeks to determine whether the U.S. Government is 
failing to counter the growing threat of the extremists. I believe we 
have learned a lot since 9/11 and in both the Bush and Obama 
administrations we have seen leadership on and commitment to this 
issue. However, 14 years after 9/11, we should not feel content with 
the pace of our efforts. At the same time, I leave you with a positive 
message. We can destroy the extremists' ability to recruit young 
Muslims. We can beat extremists at their own game, ending their 
exploitation of the Muslim identity crisis. Doing so won't cost a 
fraction of traditional hard power solutions, but it will require that 
we take a more entrepreneurial and innovative approach to policymaking. 
We must stop playing catch-up and get ahead of trends. We must take a 
broader view and not look at specific conflicts or extremist groups as 
if they are ``one-offs.'' As a Nation, we must move swiftly, like 
nimbler start-ups. We defeated communist ideology during the Cold War 
by mustering creativity and full-on dedication. We can and must do this 
again. The time to act is now. So what are we waiting for?

    Chairman McCaul. Thank you, Ms. Pandith.
    The Chair now recognizes Mr. Hughes.

    STATEMENT OF SEAMUS HUGHES, DEPUTY DIRECTOR, PROGRAM ON 
   EXTREMISM, CENTER FOR CYBER AND HOMELAND SECURITY, GEORGE 
                     WASHINGTON UNIVERSITY

    Mr. Hughes. Chairman McCaul, Ranking Member Thompson, and 
Members of the committee, thank you for the opportunity to 
appear before this committee. I am the deputy director of 
Program on Extremism at George Washington University.
    Prior to joining the program, I spent over 3 years in the 
National Counterterrorism Center as a staffer leading the 
countering violent extremism efforts. With my colleagues in 
three other departments, we held dozens of engagement events 
around the country and worked with community partners on 
preventing individuals from joining groups like ISIS. My 
testimony today is informed by these personal experiences on 
the forefront of this new policy challenge.
    Countering violent extremism is an inherently amorphous 
term. The effort is fraught with civil rights and civil liberty 
concerns. Yet CVE, if properly implemented, can help sway young 
people from radicalizing, therefore saving lives and enabling 
law enforcement to concentrate on those who made the leap to 
violent militancy. On the other hand, if improperly 
implemented, CVE can have an adverse effect on building 
communities of trust around the country. It is a delicate 
exercise but one that I believe the Government and communities 
have a moral responsibility to attempt.
    It is undeniable that there has been a rise in the number 
of ISIS-related arrests this year. Even more disturbing, a 
number of those arrests included minors. I have interviewed 
some of those who have been charged. I have talked with the 
families of missing children. I have met with religious leaders 
and civic leaders around this country. The status quo of doing 
nothing with radicalized individuals or putting them away for 
25 years is untenable. We need a new approach. It is incumbent 
on us to provide those concerned about their loved ones a 
middle way. Properly implemented CVE programs could provide 
that alternative while also alleviating law enforcement's 
burden.
    Over the last decade, governments throughout the world have 
invested substantial resources to devise CVE programs. The U.S. 
Government has lagged behind in creating a comprehensive CVE 
approach. Instead, they focused on one-up events and isolated 
programs. Though the United States has a domestic CVE strategy, 
its efforts are disjointed and underfunded.
    In the last year, the administration has had a renewed 
focus on CVE. Nonetheless, the strategy faces key challenges: 
First, there is a lack of funding. Resources devoted to CVE 
have been highly inadequate. CVE units within each agency are 
woefully understaffed.
    No. 2, there is a lack of a lead agency. There needs to be 
a single point of responsibility and a point of contact for 
coordination, for public advocacy groups to know who they can 
talk to, and for Congress to have some oversight on it.
    No. 3, there has been a singular focus on one form of 
extremism. The recent terrorist attack in Charleston is a 
painful reminder, if there ever was a need to be reminded, that 
Islamist extremism is hardly the only form of extremism that 
poses a threat. CVE has to be expanded to address other forms 
of extremism.
    No. 4, there has been a resistance from Muslim communities 
on this issue. Successful CVE efforts need support from a broad 
community cross-section. Some American Muslim civic groups 
embrace CVE efforts, while others decry it as a surveillance 
ruse or effort that singles out American Muslims. In addressing 
these concerns, the U.S. Government would do well to listen to 
not just only the most vocal voices, but also the grassroots 
organizations.
    CVE trends and various Europe countries where authorities 
have implemented ambitious CVE strategies over the last decade 
offers some useful pointers. What we are seeing is European 
authorities are considering individual interventions as a 
crucial part in their counterterrorism efforts as they are 
relatively cost-effective and easier to evaluate.
    Let me close with a general observation: There are violent 
extremists, who should be arrested and put away for a 
considerable amount of time. Our intelligence officers and law 
enforcement should be commended for that work. But there is 
also a subsection of individuals that are still persuadable 
before arrest, that are still reachable before they cross that 
legal threshold. CVE should never be about criminalizing 
beliefs. Instead, it is, at its core, about protecting our 
communities and safeguarding the vulnerable individuals who are 
still reachable.
    In the course of my career, I have had the opportunity to 
talk to fathers, mothers, friends of young men and women who 
have left this country to go to conflict zones. Professionally, 
as a Government official, and personally, as a father, this was 
an intense sense of sorrow and regret that I wasn't able to 
help them before they got on that plane. Many of these kids are 
barely old enough for a driver's license. They were reachable 
before they crossed that legal threshold. We have a 
responsibility to address this shortfall. We also have a 
responsibility, and I would say a moral responsibility, to 
prevent more families from going through that same tragedy. 
Thank you for the opportunity to testify. I welcome any 
questions.
    [The prepared statement of Mr. Hughes follows:]
                  Prepared Statement of Seamus Hughes
                             July 15, 2015
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for the opportunity to appear before you today. I 
am the deputy director of George Washington University's Program on 
Extremism, a new academic initiative inside the university's Center for 
Cyber and Homeland Security. Our mandate is to explore complex issues 
such as terrorism, radicalization, and countering violent extremism 
through a non-partisan and empirical approach.
    Prior to joining the program, I spent over 3 years as a lead 
National Counterterrorism Center (NCTC) staffer on countering violent 
extremism issues. With my colleagues in three other departments, we 
held dozens of engagement events around the country and worked with 
community partners on preventing individuals from joining groups such 
as the Islamic State in Iraq and Syria (ISIS). My testimony today is 
informed by these personal experiences on the forefront of this new 
policy challenge.
    Countering Violent Extremism, commonly referred to as CVE, is an 
inherently amorphous term. It can be described as measures aimed at 
preventing individuals from radicalizing and reversing the process of 
those who have already radicalized. The effort is fraught with civil 
rights and civil liberties concerns.
    Yet CVE, if properly implemented, can help sway young people from 
radicalizing, thereby saving lives and enabling law enforcement to 
concentrate on those who have made the leap into violent militancy. On 
the other hand, if improperly implemented, CVE can have an adverse 
effect on building trust with communities. It is a delicate exercise 
but one that I believe Government and communities have a moral 
responsibility to attempt.
    At least 200 U.S. persons have travelled or attempted to travel to 
Syria to participate in the conflict. This year, nearly 50 were 
arrested and charged with various terrorism-related offenses. Even more 
disturbing, a number of those who have attempted to travel to Syria or 
Iraq are minors. I interviewed some of those who have been charged, 
talked with families of ``missing'' children, and met with religious 
and civic leaders throughout this country. The status quo of either 
doing nothing with radicalized individuals or locking them away for 25 
years is untenable. It is incumbent on us to provide those concerned 
about their loved ones a middle way. Properly implemented CVE programs 
could provide that alternative while simultaneously alleviating the 
burden of cases law enforcement has to address.
    Over the last decade, governments throughout the world have 
invested substantial resources in devising CVE strategies. The United 
States has somewhat lagged behind in creating a comprehensive CVE 
approach, instead focusing on a series of isolated programs and 
episodic outreach efforts. Though the United States has a domestic CVE 
strategy, its efforts are disjointed and underfunded. Several 
overlapping reasons account for this deficiency, including:
  <bullet> the limited number of terrorism cases in the United States;
  <bullet> the confusion generated by the overlap of several agencies 
        dealing with radicalization-related issues in various 
        jurisdictions;
  <bullet> a National culture, reinforced by core constitutional values 
        protecting freedom of conscience, that does not believe law 
        enforcement should grapple with ideological and even indirectly 
        religiously-related issues.
    The Boston Marathon bombing, and later the rise of ISIS, triggered 
a renewed focus on CVE, culminating in the February 2015 high-profile 
White House summit. Part of the revamped effort includes pilot programs 
in three cities, each with a distinct approach: Minneapolis-St. Paul's 
focused on societal-level concerns, Los Angeles' on community 
engagement, and Boston's on interventions with radicalized individuals.
    The administration's well-meaning CVE strategy faces key 
challenges:
  <bullet> Lack of funding.--Resources devoted to CVE have been highly 
        inadequate, and CVE units within each relevant agency remain 
        understaffed.
  <bullet> Lack of lead agency.--Current CVE efforts appropriately 
        involve an array of agencies at the National and local levels. 
        Yet there needs to be a single responsible point of contact for 
        coordination, public advocacy matters, and Congressional 
        oversight.
  <bullet> A singular focus on one form of extremism.--The recent 
        terrorist attack in Charleston, South Carolina was a painful 
        reminder, if there was ever a need, that Islamist extremism is 
        hardly the only form of extremism that poses a threat. This 
        should not be an either/or proposition. CVE has to be expanded 
        to address other forms of extremism.
  <bullet> Resistance from Muslim communities.--Successful CVE efforts 
        need support from a broad community cross-section. Some 
        American Muslim civic groups embrace CVE efforts, while others 
        decry it as a surveillance ruse or an effort that singles out 
        American Muslims. In addressing these concerns, the U.S. 
        Government would do well to listen not just to the most vocal 
        voices but also grassroots organizations at the local level.
    CVE trends in various European countries, where authorities have 
implemented ambitious strategies for over a decade, offer useful 
pointers to U.S. officials.\1\ European authorities consider individual 
interventions a crucial part of their counterterrorism efforts, as they 
are relatively cost-effective and easier to evaluate. For example, in 
the Danish city of Aarhus an innovative program to rehabilitate dozens 
of returning foreign fighters seems to have shown encouraging 
preliminary successes, with only a few going back to militancy.
---------------------------------------------------------------------------
    \1\ Lorenzo Vidino and Seamus Hughes, Countering Violent Extremism 
in America, June 16, 2015. Available at: https://cchs.gwu.edu/sites/
cchs.gwu.edu/files/downloads/CVE%20in%20- America%20.pdf.
---------------------------------------------------------------------------
    Because the radicalization process is complex and highly variable, 
European de-radicalization efforts seek to tailor interventions to each 
situation. This complicates efforts to develop broad National programs 
with easily replicable best practices. It also requires investing time 
to set up a network of community leaders with appropriate competencies.
    The United States does not need to replicate Europe's most 
ambitious CVE efforts, as it faces a significantly smaller 
radicalization challenge. General preventive measures, particularly 
those promoting socio-economic development, should be implemented only 
in limited cases, as communities generally enjoy high levels of 
integration. Engagement and other trust-building initiatives are useful 
and should be continued. Officials increasingly see the importance of 
expanding CVE's focus on community engagement to include targeted 
interventions with individuals who have become radicalized but have not 
mobilized to violence. Nonetheless, these targeted interventions so far 
have been deployed at the whim of local authorities, rather than via an 
articulated and tested methodology.
    At this stage, the most pressing need is for the administration to 
build a carefully crafted system for interventions as a potential 
alternative to prosecution. Working with civil rights advocates and 
experts in alternatives to incarceration, the Government should create 
legal and policy guidance on minimum standards for intervention efforts 
that address the specific roles of Government and communities, as well 
as the legal parameters of interveners who currently place themselves 
at risk of liability if interventions go awry. While interventions are 
best implemented at the local level, they require a high-level 
framework and clear guidance from Federal officials.
    Let me close with a general observation. There are violent 
extremists who should be arrested and put away for a considerable time. 
Our intelligence and law enforcement community does a great job at that 
and should be commended for it. But there is also a subset of 
individuals that are still persuadable and who can be reached before 
they make a choice that will irrevocably alter the Government's ability 
to take any action other than arrest.
    CVE should never be about criminalizing beliefs. Instead, it is, at 
its core, about protecting our communities and safeguarding vulnerable 
individuals who are still reachable. In the course of my career, I have 
had the opportunity to talk with the fathers, mothers, and friends of 
young men and women who left this country to go to conflict zones. 
Professionally, as a Government official, and personally, as a father, 
there was an intense sense of both sorrow and regret that we couldn't 
reach those kids--many of them barely old enough for a driver's 
license--before they got on the plane. We need to address this 
shortfall in our counterterrorism approach. We have a responsibility to 
prevent more families from going through the same tragedy.
    Thank you for the opportunity to testify before you today. I 
welcome any questions.

    Chairman McCaul. Thank you, Mr. Hughes.
    The Chair recognizes Mr. Cohen.

STATEMENT OF J. RICHARD COHEN, PRESIDENT, SOUTHERN POVERTY LAW 
                             CENTER

    Mr. Cohen. Thank you, Mr. Chairman. September 11 was the 
Pearl Harbor of our time. The devastating attacks led to the 
creation of the Department of Homeland Security and focused the 
Nation's attention on the threat of Islamic extremism. Yet, 
because the horror of 9/11, the focus on other threats was put 
aside. Let me give the committee an example. After the Oklahoma 
City bombing, Attorney General Reno formed a special task force 
to coordinate the country's response to the threat of domestic 
terrorism. The task force was scheduled to hold one of its 
monthly meetings on 9/11. Of course, it didn't for obvious 
reasons. The problem wasn't that the task force didn't meet 
that day. The problem was that it simply stopped meeting 
altogether as the country's focus shifted to the threat of 
Islamic extremism. At the same time, though, a different kind 
of threat, the threat from the radical right, was growing. My 
colleagues and I have documented a tremendous increase in the 
time since 9/11 on the number of white supremacist and other 
hate groups operating in our country. During this same period, 
there was also a marked increase in radical right violence.
    After President Obama was first elected, we detected 
another alarming trend, a tremendous increase in the number of 
conspiracy-minded radical anti-Government groups, the same kind 
of groups that were prevalent during the period of the Oklahoma 
City bombing and the same kind of groups that have killed a 
number of law enforcement officials since 9/11. In the years 
before President Obama's election, DHS maintained a modest 
commitment to monitoring non-Islamic domestic extremism, but 
that commitment waned after a controversy erupted over a report 
that the Department issued in 2009. As the Washington Post 
reported, DHS cut the number of personnel studying domestic 
extremism unrelated to Islam, canceled numerous State and local 
law enforcement briefings, and held up nearly a dozen reports 
on its extremist groups in the wake of the controversy. In the 
last 2 years, I would like to point out, we have actually seen 
a decrease in the number of anti-Government and hate groups 
operating in the country.
    But this decrease has not been matched by a decrease in the 
level of radical right activity. We have seen, instead, an 
increase in the number of persons associated with white 
supremacist activity and an uptick in the level of violence. In 
the last 5 years, for example, the number of registered users 
on Stormfront, the leading neo-Nazi forum, has increased by 
over 50 percent to over 300,000. I am not talking about 300,000 
visitors. I am talking about 300,000 people who have registered 
to spew their venom on-line. Other white supremacist websites 
have also seen increases.
    These sites are echo chambers where people, like Dylann 
Roof, the confessed Charleston shooter, have their racist views 
validated and encouraged. We issued a report last year that 
documented that Stormfront users had killed numerous people in 
the previous 5 years. Glenn Frazier Cross, a frequent poster on 
another racist website, killed 3 people last year at Jewish 
facilities in Overland Park, Kansas. We knew Cross well. His 
followers once plotted to blow up our building. His killings in 
Overland Park, Kansas, led the Justice Department to revive the 
task force that had originally been established after the 
Oklahoma City bombing.
    We have also seen in the last year increased interests from 
DHS in the threat of non-Islamic extremism. At the same time, 
we have seen indications that it is still on the back burner. 
As the Charleston massacre, of course, makes clear, that threat 
is very real. As Mr. Thompson indicated, a recent survey 
documented that law enforcement agencies consider anti-
Government extremists the most severe threat that they face, 
and as has been widely reported, more persons have been killed 
since 9/11 by radical right terrorists than by Islamic 
extremists.
    I don't want to make too much, though, of these last 
points. Many law enforcement officers have been killed in 
recent years by radical right fanatics, so it is not surprising 
that law enforcement community itself is very much on edge. If 
we started the count of deaths the day before 9/11 rather than 
the day after, the figures would tell us an entirely different 
story. We need not contend that the threat of non-Islamic 
terrorism is comparable to the kind of threat that brought down 
the Twin Towers to make the point that it is a serious threat 
that deserves the full measure of the Government's attention. 
The Charleston shootings make that point for us. I would urge 
the committee to ensure that the fight against Islamic 
extremism does not take the Government's attention away from 
other threats that endanger our great country.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Cohen follows:]
                 Prepared Statement of J. Richard Cohen
                             July 15, 2015
    My name is Richard Cohen. I am an attorney and the president of the 
Southern Poverty Law Center, a civil rights organization founded in 
1971 and headquartered in Montgomery, Alabama. For more than three 
decades, we have been monitoring, issuing reports about, and training 
law enforcement officials on far-right extremist activity in the United 
States.\1\ Because of that work, I was invited in 2010 to serve on the 
Department of Homeland Security's Countering Violent Extremism Working 
Group. I am honored to appear before the committee today.
---------------------------------------------------------------------------
    \1\ We publish our investigative findings on-line and in the 
Intelligence Report, a journal distributed to more than 50,000 law 
enforcement officers; we maintain an extensive database, conduct an 
annual census of hate and anti-Government groups, and assist law 
enforcement officials by providing information about these groups' 
activities; and, each year we train thousands of officers, including 
many who work for Federal agencies, on the dangers of domestic 
terrorism and hate crimes. We also have won a number of multi-million-
dollar court verdicts on behalf of victims of violence committed by 
hate group members. These suits have financially crippled some of the 
country's most notorious white supremacist groups, including Klan 
networks that terrorized the African-American community during and 
after the civil rights movement.
---------------------------------------------------------------------------
    In my testimony, I'd like to make two basic points. First, as the 
killings at Charleston's ``Mother Emanuel'' AME Church vividly 
illustrate, the threat of radical-right terrorism in our country is a 
serious one. Second, it is critical that the Federal Government devote 
sufficient attention to countering that threat and not allow its 
resources to be inappropriately skewed toward the fight against 
terrorism from Islamic extremists.
   the threat of non-islamic domestic terrorism is extremely serious
    In the first few years of the 21st Century, we began to detect a 
significant increase in radical-right activity in the United States. 
The number of hate groups--organizations that vilify entire groups of 
people based on their race, ethnicity, religion, sexual orientation, or 
some other characteristic--nearly doubled during a 10-year span--from 
457 in 1999 to 926 in 2008. This growth continued during the first 2 
years of the Obama administration, to a record 1,018 groups in 2011. In 
our view, the most important factor driving this increase was a 
backlash to our country's changing demographics. For many on the 
radical right, President Obama's election symbolized the kind of 
``change'' they fear.
    Although the growth in the number of hate groups began before 
President Obama took office, his election did coincide with another 
phenomenon: The dramatic resurgence of a far-right movement that 
includes armed militias and other organizations that view the Federal 
Government as their enemy and generally believe that U.S. political and 
economic elites are part of international conspiracy aimed at creating 
a one-world, totalitarian government. Originally rooted in the racist 
ideology that animated Posse Comitatus in the 1970s, the anti-
Government ``Patriot'' movement first appeared in its current form 
during the 1990s in response to Federal gun control measures and the 
incidents at Ruby Ridge and Waco. It saw a steep decline in activity in 
the years following the bombing of the Oklahoma City Federal building 
by movement sympathizer Timothy McVeigh and remained largely moribund 
until the election of President Obama. In 2008, we documented 149 
groups. By 2012, there were 1,360--an increase of more than 800 
percent.
    The surge in radical-right group activity peaked during the 2011-
2012 period. Since then, we have seen a significant decline in the 
number of both hate groups (now at 784) as well as anti-Government 
``Patriot'' groups (now at 874). Several political and economic factors 
account for this decline: A strengthening economy, crackdowns by law 
enforcement and the accelerated movement of radicals out of groups and 
into cyber space. Also, movements naturally tend to lose momentum over 
time; in addition, President Obama's reelection may have had a 
demoralizing effect on the radical right.
    Despite this drop in the number of radical-right organizations, 
white supremacist activity has not declined. Much of it, in fact, has 
simply migrated to the internet, where extremists can disseminate and 
absorb propaganda, and connect with other extremists in relative 
anonymity. Since the year President Obama was inaugurated, for example, 
the number of people registered on Stormfront, perhaps the most 
important neo-Nazi web forum, has doubled--to 300,000. About two-thirds 
of the site's registered users are from this country.
    Violence committed by non-Islamic domestic extremists also has 
continued at alarming levels. A July 2014 intelligence assessment by 
the DHS warned of a ``spike within the past year in violence committed 
by militia extremists and lone offenders who hold violent anti-
government beliefs.''\2\ In February 2015, the DHS released a report 
warning of attacks by ``sovereign citizens''--extremists who do not 
recognize the authority of the Government--citing 24 acts of ideology-
based violence, threats, or plots (mostly against law enforcement 
targets) since 2010.\3\ The data we've collected reflects an uptick in 
racist crimes and terrorist plots in recent years.\4\ The backdrop to 
this increase is important. A 2013 study by West Point's Combating 
Terrorism Center found that right-wing violence in the 2000-2011 period 
surpassed that of the 1990s by a factor of four.\5\
---------------------------------------------------------------------------
    \2\ Domestic Violent Extremists Pose Increased Threat to Government 
Officials and Law Enforcement, Office of Intelligence and Analysis, 
Department of Homeland Security, July 22, 2014.
    \3\ Sovereign Citizen Extremist Ideology Will Drive Violence at 
Home, During Travel, and at Government Facilities, Office of 
Intelligence and Analysis, Department of Homeland Security, Feb. 5, 
2015.
    \4\ Terror from the Right: Plots, Conspiracies and Racist Rampages 
since Oklahoma City, Southern Poverty Law Center, at http://
www.splcenter.org/get-informed/publications/terror-from-the-right.
    \5\ Challengers from the Sidelines: Understanding America's Violent 
Far-Right, Arie Perliger, Combating Terrorism Center, Jan. 15, 2013.
---------------------------------------------------------------------------
    In some ways, the suspect in the Charleston massacre, Dylann Roof, 
represents the new face of domestic terrorism: The extremist who acts 
alone after being radicalized and inspired on-line by an extremist 
ideology. The Charleston attack came 14 months after a neo-Nazi and 
former Klan leader named Frazier Glenn Cross (also known as Frazier 
Glenn Miller) murdered three people at a community center and a 
retirement facility, both with Jewish affiliations, in Overland Park, 
Kansas. It came nearly 3 years after another white supremacist, Wade 
Michael Page, walked into the Sikh Temple of Wisconsin near Milwaukee 
and opened fire with a 9 mm pistol, killing six worshipers, including 
the temple's president and three priests, and wounding four other 
people. The wounded included the first police officer to respond; he 
was shot multiple times.
    In each case, the attacker was an avowed white supremacist. And in 
each case, the shooter targeted members of a minority group (though in 
Kansas, the victims were not actually Jewish). But, unlike the 
attackers in Wisconsin and Kansas, Roof apparently had not been a 
member of a racist hate group. From what we now know, he had only 
recently been radicalized and indoctrinated into the world of white 
nationalism. And his radicalization, according to a manifesto published 
on a website registered to him and that authorities believe he wrote, 
occurred on-line.
    Roof left many clues about his motivations and the process that led 
him to commit an act of terror. He was seen in a Facebook photo wearing 
a jacket adorned with patches representing the flags of former regimes 
in South Africa and Rhodesia that brutally enforced white minority 
rule. In his approximately 2,400-word manifesto, he described becoming 
``racially aware'' in the echo chamber of white supremacist websites 
following the controversy over the death of Trayvon Martin in 2012. On 
the site of the racist Council of Conservative Citizens, he found 
``pages upon pages of these brutal black on White murders.'' He ``saw 
the same things happening in England and France, and in all the other 
Western European countries,'' then ``found out about the Jewish 
problem.'' Roof wrote further that ``by no means should we wait any 
longer to take drastic action.'' As he was murdering his victims, Roof 
told them that black people were ``taking over our country'' and 
``rap[ing] our women.''
    Roof's words and the symbols he used are instructive. They show 
that he was thoroughly indoctrinated into a transnational white 
nationalist movement that is emerging as the world grows more connected 
by technology. The days are gone when white supremacists fought to 
maintain Jim Crow segregation or white hegemony in the South.\6\ Today, 
they promote a narrative of an on-going ``white genocide''--the idea 
that white people are being displaced by people of color across the 
globe. This message has been distilled into what is known in white 
nationalist circles as ``the mantra,'' a 221-word attack on 
multiculturalism that reads in part: ``Anti-racist is a code word for 
anti-white.'' Its author, Robert Whitaker of Columbia, South Carolina, 
is now the 2016 vice presidential candidate for the white nationalist 
American Freedom Party.
---------------------------------------------------------------------------
    \6\ ``White Supremacists Without Borders,'' Morris Dees and J. 
Richard Cohen, The New York Times, June 22, 2015, http://
www.nytimes.com/2015/06/22/opinion/white-supremacists-without-
borders.html?_r=0.
---------------------------------------------------------------------------
    Anders Behring Breivik, who slaughtered 77 people in 2011 because 
he thought they were enabling Muslim immigration, expressed sentiments 
remarkably similar to those encapsulated by the white nationalist 
mantra and cited by Roof. Breivik was also, at one time, a registered 
user of Stormfront. Our 2014 report on Stormfront--which provides a 
window into the on-line radicalization process--showed that its users 
have committed nearly 100 murders, including Breivik's, since 2009.\7\ 
Almost all of the killers had regularly posted comments on Stormfront 
and other racist sites in the 18 months prior to their attacks. The 
forum appears to have helped nurture and rationalize their racial 
hatred.
---------------------------------------------------------------------------
    \7\ White Homicide Worldwide, Southern Poverty Law Center, April 
16, 2014, at http://www.splcenter.org/get-informed/publications/White-
Homicide-Worldwide.
---------------------------------------------------------------------------
    Stormfront is merely one example of web forums that promote racial 
hatred. Frazier Glenn Cross regularly posted comments on Vanguard News 
Network, a neo-Nazi forum with the slogan ``No Jews. Just Right.'' 
Racist and anti-Semitic threads can be found on many other sites, 
including mainstream forums like Reddit, which now has a community of 
crudely anti-black sites known as ``the Chimpire.'' In addition, hate 
music used to recruit young people can be purchased from even some of 
the largest on-line music retailers, though several--including iTunes 
and Spotify--have taken steps in recent months to remove such music, at 
our urging.
    As further evidence of this globalization of white nationalism, we 
have documented more than 30 instances in the past 2 years of movement 
leaders traveling abroad to strengthen their international ties. After 
one such trip to England and France, Jared Taylor of American 
Renaissance, a group that publishes material purporting to show the 
inferiority of black people, wrote that: ``The fight in Europe is 
exactly the same as ours.''\8\
---------------------------------------------------------------------------
    \8\ American Renaissance website, at http://www.amren.com/features/
2013/04/report-from-france-and-britain/.
---------------------------------------------------------------------------
    This message is used to recruit and radicalize young men like Roof, 
who absorb propaganda on-line and then may act alone or in small 
groups. Earlier this year, we issued a study--The Age of the Wolf--
finding that 46 of 63 domestic terror incidents (74%) culled from 
academic databases and the SPLC's own files over the previous 6 years 
were the work of a ``lone wolf,'' a single person. Ninety percent were 
the work of no more than 2 people. These are the kinds of attacks that 
are the most difficult for law enforcement to detect in advance and the 
most likely to succeed. Our report also found that a domestic terrorism 
incident, either an attack or foiled plot, occurred on average every 34 
days during the period examined, from 2009 to 2014.\9\
---------------------------------------------------------------------------
    \9\ The Age of the Wolf, Southern Poverty Law Center, Feb. 12, 
2015, at http://www.splcenter.org/lone-wolf.
---------------------------------------------------------------------------
   government must ensure resources devoted to non-islamic domestic 
               terrorism are commensurate with the threat
    After the deadly Oklahoma City bombing on April 19, 1995, then-
Attorney General Reno formed a special task force to coordinate the 
country's response to the threat of domestic terrorism. The task force 
was scheduled to hold one of its monthly meetings on September 11, 
2001, but did not do so for obvious reasons. But the task force did not 
miss just one meeting. As the country's focus shifted to the new and 
devastating threat of Islamic terrorism, the task force did not meet 
again for 13 years. Only after Miller killed three people at Jewish 
facilities in Overland Park, Kansas, in April 2014 and public pressure 
mounted did the Justice Department reestablish the task force.
    The shift in focus to the threat of terrorism from Islamic 
extremists in the aftermath in 9/11 was not surprising. That event was 
the Pearl Harbor of our time. It led to the creation of the Department 
of Homeland Security, over which this committee exercises oversight, as 
well as to our country's involvement in 2 wars. But as the history of 
the Justice Department's task force reflects, the pendulum swung too 
far in the direction of Islamic terrorism, at the expense of other 
threats, after 9/11.
    The shadow of 9/11 has not been the only factor leading to a 
reduction in the resources and attention paid to non-Islamic terrorism 
in our country. Partisan politics also appear to have played a role. In 
April 2009, DHS released an Unclassified intelligence assessment to law 
enforcement officials entitled Right-wing Extremism: Current Economic 
and Political Climate Fueling Resurgence in Radicalization and 
Recruitment.\10\ Yet, despite the report's accuracy, then-DHS Secretary 
Janet Napolitano withdrew it following an outcry by those who claimed, 
falsely, that the report tarred conservatives as potential domestic 
terrorists. More significantly, the DHS unit responsible for the report 
was allowed to wither. In the wake of the controversy over the report, 
the Washington Post reported that DHS ``cut the number of personnel 
studying domestic terrorism unrelated to Islam, canceled numerous State 
and local law enforcement briefings, and held up dissemination of 
nearly a dozen reports on extremist groups.''\11\
---------------------------------------------------------------------------
    \10\ PDF on Southern Poverty Law Center website, at http://
www.splcenter.org/sites/default/files/downloads/resource/
DOJ_rwextremism2009.pdf.
    \11\ ``Homeland Security Department curtails home-grown terror 
analysis,'' Washington Post, June 7, 2011, at http://
www.washingtonpost.com/politics/homeland-security-department-curtails-
home-grown-terror-analysis/2011/06/02/AGQEaDLH_story.html.
---------------------------------------------------------------------------
    Daryl Johnson, the former DHS senior domestic terrorism analyst who 
was the principal author of the 2009 DHS report, wrote on The New York 
Times website on June 24, 2015, that ``through reckless neglect at 
nearly all levels of government, domestic terrorism not tied to Islam 
has become a cancer with no diagnosis or plan to address it.'' There 
are, he wrote, hundreds of Government analysts looking for Islamist 
threats but ``mere dozens'' monitoring non-Islamic threats.\12\
---------------------------------------------------------------------------
    \12\ ``For Domestic Hate, Apply the Vigor and Strategy Used for 
Muslim Terror,'' Daryl Johnson, The New York Times, June 24, 2015, at 
http://www.nytimes.com/roomfordebate/2015/06/24/charleston-and-the-
threat-of-homegrown-hate-groups/for-domestic-hate-apply-the-vigor-and-
strategy-used-for-muslim-terror.
---------------------------------------------------------------------------
    Over the last 18 months, my colleagues and I have seen renewed 
attention to the threat of non-Islamic terrorism at both the Justice 
Department and DHS. Still, there are indications that radical-right 
terrorism continues to take a back seat to Islamic terrorism. In 
February, for example, when President Obama addressed the White House 
Summit on Countering Violent Extremism, which I attended, the first 
terrorist incident he mentioned was the Oklahoma City bombing. But the 
discussion at the summit itself focused almost exclusively on the 
threat of Islamic terrorism. In this committee's Terror Threat Snapshot 
released on July 2, 2015--2 weeks after the Charleston massacre--there 
was no mention of the threat of terror from the radical right.\13\
---------------------------------------------------------------------------
    \13\ http://homeland.house.gov/sites/homeland.house.gov/files/
documents/July%20Terror%- 20Threat%20Snapshot%20_0.pdf.
---------------------------------------------------------------------------
    As I indicated in the previous section, however, the threat from 
the radical right is very real. In fact, in a study released in June 
2015, the Triangle Center for Terrorism and Homeland Security found 
that ``law enforcement agencies in the United States consider anti-
government violent extremists, not radicalized Muslims, to be the most 
severe threat of political violence that they face.''\14\ And, 
according to a widely-cited report by the New America Foundation, far 
more people have been killed in this country since 9/11 by right-wing 
terrorists than by Islamic extremists.\15\
---------------------------------------------------------------------------
    \14\ ``Law Enforcement Assessment of the Violent Extremism 
Threat,'' Charles Kurzman and David Schanzer, Triangle Center for 
Terrorism and Homeland Security, June 25, 2015, at http://
sites.duke.edu/tcths/files/2013/06/
Kurzman_Schanzer_Law_enforcement_Assess- 
ment_of_the_Violent_Extremist_Threat_final.pdf.
    \15\ http://securitydata.newamerica.net/extremists/analysis.html.
---------------------------------------------------------------------------
    Of course, had the New America Foundation report started its count 
of deadly attacks a day earlier, the figures would be much different. 
Just as it would be a mistake to discount the threat of radical-right 
terrorism, so it would be a terrible mistake to minimize the threat of 
terrorism from Islamic extremists in any way. As a country, we have 
made that mistake before. What is required--what is critical--is that 
we take all forms of terrorism seriously and that we never allow 
anything to skew the resources that we devote to fighting that which 
threatens our great country.
    Thank you.

    Chairman McCaul. Thank you, Mr. Cohen.
    The Chair now recognizes himself for questions.
    I want to read a couple of quotes from some key 
administration officials. President Obama said: We have to 
confront the warped ideologies espoused by terrorists like al-
Qaeda and ISIS, especially their attempt to use Islam to 
justify their violence.
    James Comey, just recently said: I have home-grown violent 
extremist investigations in every single State, and the terror 
threat has metastasized.
    Just recently Jeh Johnson testified this week and said in 
response to questions: My priority has been focusing on the 
communities that I believe are most vulnerable, at least some 
members of the community, to appeals from ISIS, al-Qaeda, and 
other terrorist groups overseas who are actively targeting 
individuals in these communities. They can strike at any 
moment. We are definitely in a new environment because ISIS is 
effective using social media and the internet to inspire others 
and possibly reach into the homeland.
    Eric Holder said: Horrific terrorist instances, like the 
tragic shootings at Fort Hood and the Boston Marathon bombing, 
demonstrate the dangers we face from the home-grown threats. 
The threat is real. The threat is different. The threat is 
constant.
    As I have said in my opening statement, we spend billions 
of dollars on trying to prevent and--trying to disrupt these 
threats, billions to try to stop them, but very little on 
prevention.
    I heard the testimony from Ms. Pandith and Mr. Hughes that 
you would support putting more attention, more resources, more 
focus on combating and countering violent extremism. So I want 
to ask each of the witnesses, do you agree that the 
administration needs to do more? My bill basically just 
formalizes, streamlines, and make it a priority within the 
Department, both international and domestic.
    So let me go with each of the witnesses. Do you agree that 
the administration should make combating violent extremism a 
higher priority?
    Ms. Pandith.
    Ms. Pandith. Thank you, sir. Well, I would say a couple of 
things. One is, from my perspective, this line that we are 
drawing between domestic and international around the issues 
specifically related to an AQ or an ISIL or an al-Shabaab, 
those kinds of extremists, in what I have seen because we are 
dealing with digital natives, because we are dealing with 
millennials, this isn't about what is happening in Ohio versus 
what is happening in Norway. This generation is connected to 
each other. So that is one thing I definitely wanted to say as 
we think about this.
    It leads to the second piece of this. What is the money 
that we need? How do we think about this? What we absolutely 
know in the preventive space--and Seamus has talked a little 
bit about this--in terms of the communities themselves, is that 
it cannot come from the top down. The thing that actually work 
organically are from the ground up. But where the Government 
can make a difference is to be the convenor and the facilitator 
and the intellectual partner with ideas that we hear on the 
ground.
    What does that mean in terms of resources? It means that we 
have proto-tested this. We have seen that this works. Small 
seed grants from Government can work if we are not putting the 
American flag over everything, if we find partners on the 
ground. Frankly, the pools of money that we have both at the 
Department of State, and I would say probably DHS as well, are 
not large enough to be able to give that innovation on the 
ground.
    The best ideas to fight this, sir, are not from the U.S. 
Government. They come from millennials themselves that know 
what needs to be done. So on the first part of funding, we need 
that kind of--we need that kind of money. The second in the 
terms of resources is people. You said it yourself, sir. We 
don't have enough people thinking about this all day every day 
and resourced in ways that aren't just, you know, the most 
significant title out there.
    I am talking about specific people in embassies around the 
world that are thinking about this, are interfacing with the 
grassroots, as well as people within the Department of State in 
the regional bureaus that are looking at this. Right now, 
everybody has a spliced set of things that they are working on, 
so no one can think about it fully. So long way of answering 
your question, yes, we do need to do more on the funding side, 
both in terms of the money and in terms of the actual 
personnel.
    Chairman McCaul. Yes. Thanks to the great work of Mr. 
Katko, the grants are in this legislation. I think you are 
absolutely right. When I was a Federal prosecutor, walking into 
the Muslim community with the FBI had a chilling effect. I 
don't think that is the best outreach. So I completely agree 
with your statement.
    Mr. Hughes.
    Mr. Hughes. Farah had a very good point on the 
international side. Let me touch a little bit on the domestic 
side. So, in 2011, the administration released their CVE 
strategy preventing violent extremism in the United States. At 
that point, they argued that you should use existing resources 
to address this issue. But I think I would argue that the 
threat has changed from the last 4 years. I think that you need 
to--if you are going to be serious about CVE, you need to put 
serious money behind it. I think more Americans have died in 
Syria and Iraq fighting for groups like ISIS and al-Nusrah than 
have been tasked by this administration to work on CVE issues. 
I think that is unacceptable. I think that needs to be shifted 
a little bit.
    I think CVE budget is woefully inadequate to address this 
issue. I don't think it is fair to ask two people at the 
Department of Justice to coordinate 94 U.S. attorney's offices 
on a National strategy.
    Chairman McCaul. That is well put.
    Mr. Cohen.
    Mr. Cohen. Mr. Chairman, I don't have any doubt that the 
Government's efforts to combat extremism are inadequate, no 
doubt. The question is, how ought they to be deployed? In terms 
of the bill that I know that the Chair has offered and 
considered, I am a little bit reluctant to offer an opinion, of 
course, on how DHS ought to be organized.
    I want to hear on the first instance, as Mr. Thompson 
indicated, what they think. I also share the concerns that Mr. 
Hughes and others have expressed about the civil liberty 
implications of it. I am also a bit skeptical about the ability 
of the Government to craft credible messages that will persuade 
people not to become radicalized. I think that is a job, of 
course, for our churches, a job for our schools, a job, really, 
for everyone. I think it is important that the Government 
coordinate the gathering of intelligence. I think it is 
important that the Government be involved in training efforts 
at the State and local levels to help State and local law 
enforcement officials protect themselves and protect the public 
from extremism.
    Chairman McCaul. We definitely need a counternarrative. I 
haven't seen a counternarrative come out. Whether it is--it has 
to be led from somebody. I think the administration needs to 
make this a priority and have a counternarrative to this 
propaganda out there, and of course, coming at a grassroots 
level would be ideal. Coming from within the communities 
themselves would be most effective, led by the efforts within 
the administration.
    So, with that, the Chair now recognizes the Ranking Member.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    Again, I think it is unfortunate that we don't have anybody 
from the administration here to give its side on this issue and 
impending legislation. I think it is important for us to hear 
what they are doing, but it is also important for us to hear 
what they think should be doing. So I hope, at some point, we 
can get the Department here to say something.
    I invited the Department personally on July 9 to be my 
witness before this committee. Obviously, I have not heard from 
them up to this point.
    So one of the issues that I am concerned about is strategy. 
If we are going to create a department, what is our strategy? 
What matrix are we going to use to evaluate the strategy? 
Whether or not we are tying that to some risk. I think while 
the issues associated with the Muslim community is just one set 
of risk in this narrative, I think we need to have a broader 
message so that if, in fact, the risk analysis says that there 
is a growing domestic terrorism threat in this country from the 
right wing, then that department should be nimble enough to go 
in that direction.
    I think, Mr. Chairman, the reason I asked for the hearing 
is that I have seen the evolution of Garland, Texas, and 
Charleston, South Carolina, and other places, that I am really 
concerned about. I just want us to do it right. I don't want us 
just to set another bureaucracy up and give some money. Let's 
put some matrix there. Let's put some strategy there, and let's 
hear from the Department. You know, I think we really ought to 
have the Department. But since they are not here--and I will 
ask this to all three of our witnesses: Does it make sense for 
us to look at strategy for this Department as well as a matrix 
to evaluate how good we are doing as well as tying risks to 
whatever harm that might happen here on the homeland?
    Ms. Pandith. Well, I think in terms of the strategy 
question, sir, one of the things I would say is that, 
obviously, we do need a strategy that is integrated. As I said 
in my both written and verbal statement, that for me, as I look 
at what we have seen and how you can succeed, you used the word 
``nimble,'' and it is a great word to use because you need that 
kind of flexibility because not one size fits all in what is 
happening in terms of counternarratives, in terms of what you 
do to prevent no matter what kind of extremism we are talking 
about.
    I do want to say something about the point you raised in 
terms of other things that are happening in our country. What 
we know about people who get radicalized is that nothing 
happens in a vacuum. So, for example, in Europe, when you are 
seeing the increase of anti-Semitism that is happening all 
across Europe, it absolutely plays in. That is what I meant by 
the ecosystem in terms of what the narratives are and how they 
grow. Similarly, in our country, all of this is connected. What 
happens here in America, how we speak, the rhetoric, the 
lexicon that we use, feeds into different communities. So as we 
think about a strategy, coming from the grassroots, as we think 
about being nimble, we need to understand that there has to be 
flexibility, that things are connected. So it is important that 
we are not just looking at groups like ISIS and what the 
aftermath is but, actually, the connectivity across different 
kinds of extremist groups because, indeed, they are learning 
from each other, and there is a lot of evidence to that as 
well.
    So if you are asking do we need a strategy, yes, sir, we 
need a very strong and very nimble strategy. But to go back to 
what we were saying earlier, you have to prioritize this, not 
just in Government but to the American people, that there is a 
change that is happening in our country, and we need to do more 
to stem the radicalization that is taking place.
    Mr. Thompson. Mr. Hughes.
    Mr. Hughes. Thank you, Mr. Thompson.
    I argued there was a strategy released by the 
administration in 2011 called Empowering Local Partners to 
Prevent Violent Extremism, and then they have shifted in recent 
years to do essentially pilot programs in three cities--Boston, 
Los Angeles, and Minneapolis. So I think they are trying to 
figure out this kind of broad-based strategy, and I think it is 
important to have an overarching objective to how you want to 
do this. But I don't think time is necessarily on our side. I 
think we have seen, you know, 60 people arrested in the last 6 
months just for ISIS. You look at domestic terrorism, you know, 
sovereign citizen threat is real. The Dylann Roofs of the world 
are concerning.
    I don't think that we can wait for--as a former Government 
person understanding how bureaucrats work--for a strategy we 
coordinated through 10 different departments and released. I 
think you can do in dual-track. You can have a strategy at the 
same time you are also trying to work your way through these 
issues because they are complex issues.
    On the question of effectiveness and radicalization 
factors, humans are complex. There is not a--radicalization 
isn't a linear process. It isn't a step-by-step thing. You 
know, if you do this, then you become this and this and this. 
It is just not that way. I wish it was as a policy maker 
because it would make life easier. But these are complex 
issues, and we need to be willing to adjust. Your point about 
nimbleness is important.
    Mr. Cohen. Just a few things that I would add. First, I 
think the critical fact is--the critical issue is exactly as 
you have identified it, Mr. Thompson, and that is the 
allocation of resources across the different threat of--threats 
that we face. I think too often we have swung one way or the 
other in response to the latest news. I think it is important 
that we, as a country, not do that. We have an unfortunate 
history of doing that in this context.
    The other point I would make to elaborate on something that 
Ms. Pandith said is that not only do we need to take the threat 
of non-jihadi or non-Islamic extremism as seriously, we need to 
recognize that the two are connected. If you look at the 
history of the Boston bombers, for example, they were 
tremendous consumers of conspiracy theories promoted by right-
wing groups, the idea, for example, that 9/11 was an inside 
job. So I think that it is important not just to address both 
kinds of threats but to understand the degree to which they are 
integrated.
    The other thing I would mention is that, you know, I know, 
Mr. Thompson, you mentioned that there are a lot of users on 
the Stormfront, the leading neo-Nazi website from foreign 
countries, it is also the case, that you know, the white 
nationalist movement is not really like the Klan, ``Let's 
return to Jim Crow.'' It is really a world-wide, you know, 
ethnic or white nationalism conference or phenomenon. At the 
time of the Charleston shootings, three of my colleagues were 
in Budapest at an international conference on white 
nationalism. What is happening in this country on the--on the 
domestic terrorism front is very similar to what is happening 
throughout Western Europe and Greece.
    Mr. Thompson. Thank you. I yield back.
    Chairman McCaul. Thank you, Ranking Member.
    I just would like to state for the record, the committee 
did hear from the director of the CVE program at DHS last week 
in a Classified setting. The Minority did invite him to 
testify, and, unfortunately, the Department did decline.
    I did talk to the Secretary about our efforts and this 
legislation. He was supportive. You know, and I think, Mr. 
Hughes, your point is well taken. Time is not on our side. We 
can't wait to just come up with a study here. We need to move 
forward. Time is not on our side, and we don't create a 
bureaucracy. We form one, streamline, and make it a priority.
    With that, the Chair now recognizes----
    Mr. Thompson. Will the gentleman yield?
    Chairman McCaul. Of course.
    Mr. Thompson. You know, I was at that same Classified 
hearing, and, obviously, we heard two different things. So, you 
know, I beg to differ.
    Now, I talked to the Secretary, and he told me that he had 
not seen the legislation. Now, I sent him the draft that we 
had. Now, I don't know if the final draft has gone to him, but 
at the time I spoke with him, he had not seen it. So I just 
hope that has been worked out.
    Chairman McCaul. Well, you know, we have been working with 
the Department on this legislation. As I mentioned, they are 
supportive of making it a priority. I think--I don't understand 
how anybody in this room cannot be supportive of making 
countering violent extremism a priority.
    The Chair now recognizes----
    Mr. Richmond. Mr. Chairman, I just want to--just trying to 
clarify something. You said that they are supportive, and I try 
to be as helpful to the administration as I can. So I am trying 
to say, are they supporting this legislation, or are they 
supportive of the idea?
    Chairman McCaul. Well, that is a fair question. He says he 
is generally supportive.
    Mr. Richmond. Okay.
    Chairman McCaul. In that sense and particularly, making it 
a priority.
    Ms. Sanchez. Supportive of this legislation or supportive 
of----
    Chairman McCaul. He said he is generally supportive of our 
efforts in this legislation.
    Ms. Sanchez. In this piece of legislation?
    Chairman McCaul. Which we have conferred with the 
administration on.
    The Chair recognizes Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    I thank all the witnesses for their testimony.
    I would like to discuss directly with Mr. Cohen. I know you 
and I can have differences which can go on forever. But I would 
like to try to maybe reach some common ground here today if I 
would.
    First of all, I want to thank you for putting the numbers 
in context. If you had gone back to prior to 9/11, there would 
be no comparison in the numbers. But also I think we are 
leaving out the fact that, for instance, in 2009, there was a 
subway attack reported by Islamic radicals against New York 
City, which would have probably resulted in another 400 or 500 
people being killed. That was the subway bombing. Just in the 
last several months, there have been two major raids I am aware 
of where explosives were taken in New York from Islamic 
radicals which could have resulted in the deaths of hundreds 
more. So if we are getting into numbers, I think it is really 
important to keep a context there.
    Also, when you say that twice as many police officers are 
twice as concerned about domestic terrorists as they are about 
Islamist terrorists, again, I don't think you will find that in 
New York City, or Boston, or Los Angeles. In New York City 
alone, there is 1,000 police officers every day focused on 
terrorism. Over the Fourth of July, there was 7,000 police 
officers assigned to threats. Again, I know what Commissioner 
Bratton did also in Los Angeles and what Commissioner Davis has 
done in Boston.
    Now, having said that, what you are talking about, 
obviously, domestic threats are real. My concern on this and 
how we balance this, is the Department of Homeland Security was 
set up after 
9/11 because of the Islamist threats. That is I think the 
overriding threat as far as numbers, as far as the fact there 
is internationally directed; it is both overseas, and it is 
here. Not to minimize any other attacks that are carried out by 
any other group. So if we do shift emphasis or add an emphasis 
to white supremacist, the Klan, American Nazi Party, any of 
these horrible murdering groups, do we, in doing that, by 
shifting any emphasis at all away from Islamic radicalism, 
aren't we putting the country more at risk? Should we have more 
money allocated for what you are talking about?
    I am not opposed to focusing the way you want to, but I 
don't want in any way to be shifting away the emphasis from 
Islamic terrorism, which is real. Now, the Chairman said that 
Islamist terrorism is just one set of risks. I don't think 
there is an equivalency. Again, we are talking about possible 
nuclear attacks. We are talking about ISIS. We are talking 
about al-Qaeda, al-Qaeda in the Arabian peninsula. We can go 
Boko Haram, al-Shabaab, and the fact that there is, I think, 
the Chairman has said, over 200,000 social media hits every day 
coming.
    So let me ask you, and I am really giving you the 
opportunity, which I never thought I would be doing, but giving 
you the opportunity as to how we would balance this by not in 
any way shifting away from the real threat of Islamic 
terrorism, which is why the Department of Homeland Security was 
created, and how we then give extra emphasis to the very real 
concern that you have.
    Mr. Cohen, this is something that I maybe regret doing, but 
I will give you the opportunity.
    Mr. Cohen. Well, thank you. First, you and I have always 
been on the same side. We may have had a slightly different 
perspective. So I appreciate--it is good to see you again. I 
have tried to be very careful in my use of the figures. I think 
that you are right. If we count--if we start the day before 9/
11, we have a different story. I tried to acknowledge that 
point.
    I would also point out that there have been a number of 
plots that have been fortunately broken up by the FBI on 
white--by white supremacists that would have resulted in the 
deaths of thousands of people, plots, for example, to spread 
ricin, plots to poison water supplies. So I don't--I know 
neither you nor I want to minimize that threat. I hope there is 
a--or maybe there is an assumption underlying your question to 
me, and that is that we are in a zero-sum game. That we can't 
focus on one unless--we can't add resources in one direction 
unless we take them from another. I am not sure--well, that's 
not an assumption that I would necessarily make. That is your 
assumption.
    Mr. King. No, no. That is why I am giving you the 
opportunity. I say, how do we do it? I am asking you.
    Mr. Cohen. You are asking me what? I am sorry.
    Mr. King. What I am saying is that I would not be opposed 
to adding extra resources to the threats you are concerned 
about----
    Mr. Cohen. I second that.
    Mr. King [continuing]. No way should we be minimizing. In 
fact, we should probably even be increasing the threat of 
Islamic--countering the threat of Islamic terrorism. That is 
all I am saying.
    Mr. Cohen. Yeah. No. I understand. I don't think I disagree 
kind-of with that in principle. I do think it is obvious, 
though, that the Government's focus went away from the threat 
of non-Islamic extremism after 9/11.
    Mr. King. If I could just interrupt you. I am not trying to 
be rude on this, but----
    Mr. Cohen. I am sorry. What?
    Mr. King. I said I am not trying to be rude by interrupting 
you, but my time is running out. When you say the Government 
emphasis shifted, the Department of Homeland Security didn't 
exist before 9/11. So if the Government emphasis--that was 
within the Justice Department. That is not the fault of the 
Department of Homeland Security that the Justice Department may 
have shifted its emphasis. We have jurisdiction over the 
Department of Homeland Security.
    Mr. Cohen. My remarks I was speaking about, you know, all 
Government agencies, quite frankly, not simply the Department 
of Homeland Security. I did not realize that its mandate was 
limited solely to protecting the homeland against non-Islamic--
against Islamic extremists. That was not my understanding. I 
thought it had a broader mandate, and I think at one point, of 
course, it took that other threat a little bit more seriously 
than it has in the recent years.
    Mr. King. Well, yeah, that is because it was set up in the 
immediate aftermath of 9/11.
    Mr. Cohen. I acknowledge that point, sir. But it wasn't the 
exclusive threat that the enabling legislation asked them to 
focus on. Again, we know that that office that was focusing on 
non-Islamic extremism at the Department was basically 
dismantled after 2009. I think that was a mistake. I think 
they--again, I don't want to tell them how they ought to 
organize themselves, but I think you and I both agree that they 
ought to devote sufficient resources in light of the reality of 
the threat.
    Mr. King. I would just say so long as nothing is taken away 
from the Islamist threat. So maybe we did find some rough 
agreement, which is what we usually do.
    Mr. Cohen. Thank you, sir.
    Mr. King. I yield back. Thank you.
    Chairman McCaul. The Chair recognizes Mr. Richmond.
    Mr. Richmond. Mr. Chairman, and former Chairman, and I am 
glad to see the discourse that you had with Mr. Cohen because I 
think it shows some common ground. But I think today is just a 
generally sad day and why our approval rating in Congress is so 
bad. This is not an issue that we disagree on. We have a panel 
here today who I think is providing expert testimony. We can 
find common ground. We can make the American people safer, and 
we have a mark-up scheduled right afterwards. Where is the time 
for collaboration? Where is the time to digest their testimony, 
digest what they are saying, figure out how to put it in a 
bill, and come to common ground?
    Since I have been in Congress, and it is 5 years now, we 
talk about Sovereign Citizen, who has 100,000 active members, 
300,000 dabblers. Well, Sovereign Citizen in my district, they 
shot up a trailer park, killed two deputies, one a father of a 
2-year-old. The other was 32 years old that had five kids. 
Wounded three other deputies. In the last Congress, we had a 
million hearings on Islamic terrorism. We begged and we asked, 
can we just broaden it a little bit so we can deal with other 
home-grown terrorists----
    Chairman McCaul. Will the gentleman yield on that point?
    Mr. Richmond. Absolutely.
    Chairman McCaul. This hearing was in response to the letter 
from Mr. Thompson to address both international and domestic 
terrorism. That is the title of the hearing. The bill itself 
talks about extremism in all forms. It does not say just 
``Islamist.''
    Mr. Richmond. Well, and I will reclaim my time. But I 
started mentioning it last Congress, but I think to date--and I 
am not trying to cast blame because that is Monday morning 
quarterback.
    What I am saying is, where we are right now we can do big 
things, and we can do it together. But the only way to do it 
together, I think, is to listen to what they say, listen to 
both sides, and come with a very carefully crafted bill. My 
colleague from New York, Mr. King, I think has made a good 
point, which is they are both important. Home-grown, whether it 
is radical right or whether it is Islamic terrorism, they both 
deserve a bunch of attention. We shouldn't just shuffle the 
cards on the deck to pull resources from one to go to the 
other. If we are serious about this, it may require finding new 
resources.
    When I hear Mr. Cohen and Mr. King almost agree that if 
this--if we are serious about this, and I think Mr. Hughes 
specifically said CVE is woefully inadequately underfunded, Ms. 
Pandith said that we had to focus on grass-roots, bottom-up, 
and watch our language. Well, when we listen to them, we don't 
have time to incorporate that into what we are about to mark up 
in 30 minutes. So I am just saying if we want to be serious 
about this, I just don't think that----
    Chairman McCaul. Will the gentleman--I have just a little 
bit of time if the gentleman will yield. We have been working 
for 6 months----
    Mr. Richmond. I didn't yield.
    Chairman McCaul [continuing]. With the staff on this bill, 
for 6 months.
    Mr. Richmond. Well, let me go back to saying I didn't 
yield.
    Chairman McCaul. You said where----
    Mr. Richmond. Okay. Let's try this one more time. Let's try 
this one more time. I did not yield.
    Chairman McCaul. I yield back.
    Mr. Richmond. You are the Chairman, and as soon as I 
finish, you will have time because you are the Chairman.
    So all I am saying is I think there is a process that we 
could do this.
    Mr. King and Mr. Cohen went back and forth. In New York, 
all the police officers wake up--or a thousand wake up every 
day thinking about Islamic terrorism and others as their major 
concern. In police departments all over and probably in the 
South where I am from, they think about a different form of 
home-grown terrorism. All I am saying is that for us to do this 
in this manner this day is the part that saddens me. It may not 
sadden you, and I am not asking you to agree with me.
    But I am just saying today I sit here in agreement with Mr. 
King that this issue is so important that we may have to find 
new money so that if we are going to do it, we do it right. I 
agree with Mr. Hughes. I agree with Mr. Cohen. I agree with Ms. 
Pandith that we have to treat this like the issue it is because 
lives are at stake. As we look at Charleston and we look at all 
of the plots that were prevented, the frustration that I have 
is that we put so much emphasis on Islamic terrorism, home-
grown Islamic terrorism--and the FBI is doing a really good job 
with it because they are scouring the internet, and they are 
doing all the things that Mr. King pushed them to do. But if 
you look at the case of Charleston, he was on the internet. Why 
couldn't we devote the resources to finding him before he did 
his dastardly deed and maybe we would be in a different place?
    So, Mr. Chairman, I didn't ask any questions.
    Now is your time, but thank you for the time, and I yield 
back.
    Chairman McCaul. Thank you.
    The Chair recognizes Mrs. Miller.
    Mrs. Miller. Thank you very much, Mr. Chairman, and I 
certainly appreciate you calling this hearing and expanding it 
to the scope of not just ISIS and Islamic extremists but 
domestic terrorism as well. I think, certainly in light of what 
happened in South Carolina, we were reminded of all of that 
again.
    But I do want to--you know, in May ISIS actually issued a 
warning that they were planning more attacks in the United 
States by training soldiers in 15 different States. They 
actually mentioned my State of Michigan. I come from southeast 
Michigan. So my question, and, you know, because of the 
demographics in our area, I am very, very well aware of how 
important it is that the community has trust with the law 
enforcement, various Federal agencies, or all of the--whether 
it is local law enforcement or what have you as you reach out 
into communities and think about how we can get in early. I was 
listening to Mr. Hughes' testimony about, you know, it is too 
bad we couldn't have reached some of these youths before they 
got on that plane, and so I guess can you both, Ms. Pandith and 
Mr. Hughes in particular, really sort of flesh out for me a 
little bit about how we can reach out perhaps a little bit 
better from the community standpoint to these various groups. 
Also, perhaps, what is the best--not only just the tools in the 
outreach, but the agency best suited to do so and how our 
committee and the Congress needs to think about improving the 
model for that.
    Mr. Hughes. Sure. I will go first. In terms of engagement, 
I don't think the U.S. Government needs to replicate the 
European model of broad-based engagement. I think the Europeans 
are shifting away towards more of an intervention approach 
because then you can kind of measure, okay, if this kid changed 
his mind, if he decided not to cross that legal threshold, it 
is manageable numbers. Now, that is fraught with a number of 
civil rights and civil liberties issues, legal ramifications.
    The reason why, and you touched on this a little bit, the 
reason why this is important, and the debate between domestic 
and Islamist-inspired terrorism is an important one. Look, I 
think we are losing fact of something. Countering violent 
extremism is at it core about that kid. So I spent a number of 
years going around the country talking to families. I sat in a 
seat of Riverside Towers basement apartment with 5 mothers of 
kids that have absconded and went to Somalia, joined al-
Shabaab. They are crying, and they are telling me their story 
about how they wished they could have stopped them. At the end 
of the day, CVE should be about reaching those kids because 
this number of 200 that have gone to joint ISIS, I think it is 
significant in terms of 200 families whose lives have been 
ruined by that. Two hundred fathers without daughters and 
mothers without sons. I think we lose sight of that when we 
discuss CVE on this. It becomes a very polarized issue. But I 
want us to kind of focus back on those 200 kids. Right? Those 
families I have talked to.
    Ms. Pandith. So I would say a couple of things. The first 
is, you know, you make a very important point about trust. At 
base, we have to have trust between communities and law 
enforcement for a whole host of reasons. But in 14 years since 
9/11, we have a lot of data. We know a lot about how people get 
radicalized. We know the impact of families. We know what has 
to happen in the Government space, and we know what needs to 
happen at the grassroots space.
    I can't believe I am saying this to you in 2015 because 
when I was asked to engage on countering violent extremism 
right after the Danish cartoon crisis in Europe and I was asked 
to leave the National Security Council to go to the State 
Department to do this on behalf of our country, we were at a 
point in 2007 where people were just beginning in Europe to 
understand the preventing component to this. Everybody was 
wringing their hands trying to figure out what we were going to 
do, and each government in Europe was trying to figure out 
things a different. We were pretty cocky here in America 
because we thought: Wow. We have the American narrative. It 
can't happen here.
    Where we are today in 2015 is, as Seamus just said, we are 
looking at the European models going: What has worked? What 
happened? What can we do over here? I would want to say it is 
not just about the things that we have learned in Europe 
compared to where we are in the United States. Every community 
is unbelievable different. The stories that Seamus was talking 
about I heard all over the world from parents who are terrified 
that their kid was going to move in a direction, not because 
there is something wrong with their kid but because the bad 
guys had a machinery that its poison was going in off-line and 
on-line.
    Mrs. Miller. Okay. I don't mean to be rude, but I have, 
like, 5 seconds left. So I am going to have to interrupt you as 
well. I would only say I am sorry I don't have time to ask Mr. 
Cohen the same question because when I saw that picture of that 
murderer in South Carolina, I thought that kid could be at our 
local mall. What in the world ever happened to--where did he 
come from? What kind of family was he involved with? How does 
this even happen in America?
    I yield back.
    Chairman McCaul. Thank you.
    The Chairman recognizes Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    I was given a copy of the letter that we have been 
discussing. It appears that there might be some 
misunderstanding in what the response was to Mr. Thompson's 
letter, but it looks like they have only asked for $1.8 million 
to be reprogrammed. But I will move on to my questions.
    You know, as we talk about this issue in terms of Islamic 
radicalism and home-grown, we understand why this committee was 
and Department was created after 9/11. But I never forget, and 
I keep in my mind constantly Oklahoma, which was before 9/11. 
So we have to look at all aspects of terrorism, home-grown 
radicalism, radical Islam. But we should never forget, in the 
same breath as we mention 9/11, we should mention Oklahoma and 
Timothy McVeigh.
    Let's see. Mr. Cohen, currently the concept of countering 
violent terrorism is designed to focus on all violent extremist 
activities. However, Muslim or Islamic groups are exclusively 
targeted. In the aftermath of the shooting at Emanuel AME 
Baptist--AME Church in South Carolina, shouldn't the concept of 
countering violent terrorism be applied more broadly, including 
domestic, which is why I bring up Oklahoma?
    Mr. Cohen. I certainly think that the Government's 
attention, the law enforcement officials, ought to focus or not 
lose sight of the type of terror that we saw at Mother Emanuel 
Church in Charleston. I am not sure, though, that the same 
investigative techniques or that the investigative techniques 
that are of questionable value in countering Islamic extremism 
should necessarily be imported into a different sphere. So I 
would agree that we need to focus our attention. The question, 
of course, is, how?
    Mr. Payne. Okay. Let's see.
    To follow up, Mr. Cohen, Government leaders and the media 
can be very dismissive of domestic terrorism activities and 
commonly try to categorize incidents such as what happened in 
Charleston, South Carolina, or 3 years ago in the Sikh Temple 
in Wisconsin as hate crimes or acts of mentally disturbed. You 
know, why is it important to label these actions as domestic 
terrorism, and why do you think there is so much hesitancy to 
label incidents as domestic terrorism?
    Mr. Cohen. Well, again, I think we are living in the shadow 
of 9/11, and when it is from non-Islamic sources, we don't 
necessarily--we don't think of it as terrorism. It is odd to me 
that Director Comey does not call this terrorism. It is 
obvious, under 18 U.S.C. 2331, Section 5, that it was a 
terrorist incident at the church. That doesn't necessarily mean 
that it can be prosecuted as a terrorist incident because there 
wasn't a weapon of mass destruction used as there was in the 
Boston bombing. But it does fit the clear definition of 
terrorism.
    The one other point that I would make, and I think Attorney 
General Lynch made this point, and that is that, by their 
nature, hate crimes tend to be terroristic. They send shock 
waves through the entire community that shares the 
characteristic by which the victim was selected. We do have a 
different attitude toward, you know, what we think of as home-
grown domestic extremists. Just one small point, I know that 
Senator Graham on the Senate floor said that Mr. Roof was 
like--it was like Mideast, Middle Eastern hate, and I am not 
criticizing him for saying that. I am just saying that it 
reflected kind of this mindset. We think of it in kind of 
Islamic terms, and we have a difficult time recognizing it when 
it comes from people, as Mrs. Miller said, someone who looked 
like they might show up at a mall.
    Mr. Payne. My time is up, but as we hear radical Islamists 
talk about jihad, when what this young man talked about 
creating--starting race war, would that similarly fall into a 
jihad?
    Mr. Cohen. Well, I mean, he saw himself as a racial 
warrior. He had this notion of a white genocide going on. It is 
a common theme in white supremacist circles, not simply in this 
country but world-wide. So he saw himself as a racial warrior 
perhaps much as people motivated by distorted notions of Islam 
see themselves that way.
    Mr. Payne. Thank you.
    Mr. Chairman, I yield back.
    Chairman McCaul. The Chairman recognizes Mr. Duncan.
    Mr. Duncan. I want to thank the Chairman for the hearing. 
You know, to sit here and hear your home State talked about so 
much because of the tragedy that was there is difficult.
    So let me take this opportunity to thank all the Members of 
the committee and Congress in general for the ones that made 
the effort to come to South Carolina and attend the funeral 
services for the Charleston 9. I knew Clem Pinckney. Served 
with him in the State capital. So, you know, it is personal.
    I am willing to acknowledge that the gentleman who--I am 
not going to mention his name because the shooter isn't worthy 
of us mentioning his name. He is a murderer. I am willing to 
acknowledge he was radicalized in some way.
    But there are people radicalized in this country through 
Islamic theology, through right-wing theology, or left-wing 
theology. There is a lot of examples. I wonder even why we are 
having this hearing because the President said on May 20: ``So 
I am here today,'' this is to the Coast Guard, ``So I am here 
today to say that the climate change constitutes a serious 
threat to global security and an immediate risk to our National 
security.''
    If we want to pay for this CVE side of DHS, how about end 
their involvement in climate change and National security 
threats and focus on the threats that are real after 9/11? You 
know, we hear a lot about right-wing extremists, but we never 
hear of left-wing extremists. But they are there. We hear the 
name of the shooter in Charleston, but we never hear the name 
of the shooter here in Washington, DC, the shooter that was 
unsuccessful, and thank God that he was unsuccessful. But in 
the fall of 2012, Floyd Lee Corkins, armed with a semi-
automatic pistol, 100 rounds of ammo, entered the offices of 
the Family Research Council here in Washington, intent on 
murdering--murdering--11 people there. Stopped by a security 
guard--there wasn't a security guard at Mother Emanuel--
stopped, fortunately. He had with him 15 Chick-fil-A 
sandwiches. In his own confession, he said he wanted to murder 
those 11 people and then smear the Chick-fil-A sandwiches on 
their faces.
    The gentleman was radicalized. He was radicalized by a 
group that is represented on the panel today. I started to 
object to the witness, but the Southern Poverty Law Center has 
a hate map. On that hate map, they list the Family Research 
Council because the Family Research Council supports 
traditional marriage. The Southern Poverty Law Center disagrees 
with their political position.
    This gentleman in his own confession pointed to that hate 
map and the Southern Poverty Law Center as the reason for him 
going to the Family Research Council to commit that crime. You 
don't know his name because he was unsuccessful. But he was 
just as intent as the Charleston shooter to murder 11 people.
    Do you want to talk about radicalization? Let's talk about 
both sides because the fact that they even have a hate map 
using those terminology flies in the face of what I saw in 
Charleston, South Carolina, where hate wasn't talked about by 
Mother Emanuel. Hate wasn't talked about by Charleston. Hate 
wasn't talked about by South Carolina. South Carolina is the 
epitome of what we should show in this country. When you saw 
the families of the victims look the perpetrator in the eye and 
say, ``We love you, and we forgive you for your act,'' the word 
``hate'' wasn't used.
    But a hate map pointing to the Family Research Council 
radicalized a left-wing extremist. I am using that term because 
we are hearing a lot about right-wing extremists. If you read 
Mr. Cohen's comments, it is all about right-wing extremism, but 
his group radicalized a left-wing extremist who wanted to 
commit murder just the same as the gentleman in Charleston.
    So let's be balanced in this, and let's try, as Members of 
Congress who represent our States, to follow the example of the 
folks in Charleston that I am proud of because I love every one 
of you. If we talk about love and forgiveness and following 
God's path, and we understand that we need to take the log out 
of our own eye before we try to take the speck out of somebody 
else's eye, that is a lesson that Christ taught us.
    So I don't have any further questions. I appreciate the 
leniency, Mr. Chairman. I think let's focus on keep America 
safe from both radicals within our country, regardless of their 
flavor, and radicals outside this country that want to behead 
not--they want to behead every one of us as well as the Statute 
of Liberty because they hate freedom, and they hate America. If 
we keep our eye focused on the ball in keeping America safe, I 
think that is the important part of this committee. I think 
that is why it was formed.
    With that, I yield back.
    Chairman McCaul. The gentleman's time is expired.
    The Ranking Member would like to be recognized.
    Mr. Thompson. Well, our witness has been referenced in Mr. 
Duncan's statements, and I think, as a courtesy, we should 
allow Mr. Cohen an opportunity to respond.
    Chairman McCaul. Mr. Cohen is recognized.
    Mr. Cohen. Thank you. The Southern Poverty Law Center 
compiles data every year on groups that we call hate groups. 
These are groups that vilify persons because of their race, 
religion, their sexual orientation, or whatnot. We list the 
Family Research Council not because it supports traditional 
marriage. That is not the reason at all.
    Mr. Duncan. Excuse me, but I can go to the website on my 
iPad, and I can read your words.
    Mr. Cohen. If you would let me finish.
    Mr. Duncan. Yes, sir.
    Mr. Cohen. We list the Family Research Council because it 
routinely vilifies the gay and lesbian community with known 
falsehoods. It perpetrates false propaganda. Groups like Focus 
on the Family that support traditional marriage, we----
    Mr. Duncan. Let me ask you a question. Was Ben Carson not 
listed at one time on that map?
    Mr. Cohen. He was certainly not listed as a hatemonger. You 
know, we list----
    Mr. Duncan. He was targeted by your group. Right?
    Mr. Cohen. I am sorry. What?
    Mr. Duncan. He was targeted by your group as a hatemonger?
    Mr. Cohen. That is incorrect. That is incorrect.
    Chairman McCaul. The Ranking Member reclaims his time.
    Mr. Thompson. Mr. Cohen, if you would, just respond to what 
was said.
    Chairman McCaul. If you could, briefly.
    Mr. Cohen. Thank you. The statement that we listed the 
Family Research Council because it is opposed to traditional 
marriage is incorrect. I would say the--and I would say the 
Southern Poverty Law Center is no more responsible for what Mr. 
Corkins did than Martin Scorsese is for the actions of Mr. 
Hinckley. I think the charges that have been made against us 
are absurd, quite frankly.
    Chairman McCaul. Okay.
    The Chair recognizes Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman.
    Thank you to the panel for being here today. I wanted to 
just put it on the record, Mr. Chairman, that the information 
that has been shared by our panelists is really important and 
is very illuminating to me.
    But I really would have wished we had the opportunity to 
separate these hearings and concentrate on the domestic issues 
with regard to those individuals who don't represent any 
relationship to ISIL or al-Qaeda or al-Shabaab or anyone else 
but who are grown here out the sense of hate and wreak terror 
on communities because off their religion or their race. I 
think that we still need that opportunity to do that.
    Mr. Cohen, I apologize for that exchange that just took 
place.
    So I am going to ask a few general questions. I think this 
is very interesting. This is a prelude to what was going to be 
a mark-up of the bill that I think is a little bit premature 
here.
    Ms. Pandith, you mentioned that this is really important 
that we counter this violence by working from the bottom up. So 
you therefore said that it is a good idea to have grants in the 
community to create opportunities so that youth can be engaged 
and others can be engaged. I wonder if those are the same kinds 
of things that I think help communities become healthier like 
the former PAL leagues, the academic recreational character-
building opportunities where kids get to do something, not be 
on the streets, kind of focus on what life could be. Is that 
the kind of thing that you are talking about?
    Ms. Pandith. Thank you. There are two components. One is 
there are Government grants. Most organizations on the ground 
don't want to touch the Government with a 10-foot pole. Right? 
You need to partner with 501(c)(3)s, nonprofit organizations, 
things that are credible on the ground that make sense for the 
communities around them right.
    Mrs. Watson Coleman. But the money comes from some place, 
though.
    Ms. Pandith. Right. So that is my second point. What you 
are seeing right now in terms of the most innovative kind of 
things are coming from communities themselves. Again, I am 
speaking from my perspective on these things. We don't have 
enough money. So there is something--there is a whole problem 
around fatigue about communities that don't have enough money 
to be able to do things that we need outside of Government 
money to do it. But Government can push outside entities to 
give money toward their things.
    Mrs. Watson Coleman. Okay. So you are not suggesting that 
this consolidated CVE effort use any of its $10 million to----
    Ms. Pandith. No. I am saying both. I am saying both.
    Mrs. Watson Coleman. For that purpose, though.
    Ms. Pandith. Because the American Government can--yes.
    Mrs. Watson Coleman. So do you think that, and, Mr. Cohen, 
you might want to respond to this too. Do you think that that 
same kind of activity in the local communities, bringing 
together groups, being the, you know, engagements, being 
educational, recreational, and job training, do you think those 
kinds of things work in both situations, both with the 
individuals that you are talking about that are most vulnerable 
and with the individuals that we see creating the terror 
domestically and are domestic grown and are, you know, directed 
at people based on their race, creed, color, and national 
origin and ancestry, et cetera? I ask that of both of you.
    Mr. Cohen. I think the answer is yes. I mean, you know, you 
look at someone like the Charleston shooter, and we have an 
alienated young man, a high school dropout, and so, you know, 
kind-of, what happened there? You know, what I wonder, though, 
is what is the role of the Government versus the role of our 
schools, the role of our churches? You know, at Southern 
Poverty Law Center, we try to provide free classroom materials 
to every school in the Nation to try to give teachers tools 
they can use to reach every kid in their classroom. So and 
there is no question that it is a job not just for the 
Government but a job for all of us.
    Mrs. Watson Coleman. So can you tell me something about the 
socioeconomic status of the young man who created that 
terrorist act at Mother Bethel? Do you know?
    Mr. Cohen. Well, a little bit. I understand that he was 
from, your know, the product of a divorced home, that he was 
very much a loner. He spent a lot of time by himself, that he 
dropped out of high school. The one thing I would say, though, 
it is obvious from reading his manifesto is that we are not 
talking about a stupid kid. He was obviously highly 
intelligent.
    Mrs. Watson Coleman. So he is another illustration of what 
might work if we could create jobs programs and community 
programs, part of healing communities, apprenticeship 
programs----
    Mr. Cohen. If there is some way to reach young people like 
that, it would be great. Absolutely.
    Mrs. Watson Coleman. I am very concerned about the 
radicalization of these very young people. Very concerned about 
it. But I am also concerned about the 20-year-old, the 20- or 
21-year-old, and it seems to me that we are not doing enough to 
put programs and opportunities in our community to make our 
communities healthier, whether or not it is recreation, 
academics, education, character building, community relations, 
we need to be focusing on putting our efforts there. I am 
sorry.
    Ms. Pandith. That is absolutely right. But there is no 
profile with socioeconomic or education levels around the kind 
of radicalization we are talking about.
    But the other thing is, beyond what you just said, beyond 
those kinds of programs, there have to be very specific 
programs that are dealing with a young person along the 
conveyor belt of radicalization, which doesn't have to do with 
leadership training or other things that you have described.
    Mrs. Watson Coleman. So we really need to examine evidence-
based approaches in programs. We recognize that the European 
model PReVENT, or whatever it is called, isn't necessarily 
working. We recognize that the pilot programs in Los Angeles 
and Boston and someplace else aren't necessarily the approach 
that we should--because we are getting a lot of feedback that 
these are not fair applications and these are not particularly 
yielding what we need in order to make our homeland safer. Is 
that a fair assessment? That is a yes or no.
    Ms. Pandith. No. It is not a fair assessment, but I know 
you are running out of time. I would just simply say one-off 
programs are not going to do enough. There has to be far more 
that is going on----
    Mrs. Watson Coleman. So my question, I guess, is shouldn't 
we be prepared to listen to an array of programs and approaches 
that are evidence-based and work in collaboration with the 
Department of Homeland Security before we move forward and 
present legislation that reorganizes an effort around what we 
think is needed as opposed to what we know?
    Ms. Pandith. We have 14 years of evidence and experience, 
and we know what to do. It is possible to do a lot more than we 
are doing. I don't think we need to sit around figuring out 
what might work. We have lots of evidence from around the world 
and----
    Mrs. Watson Coleman. Okay. Thank you.
    Mr. Hughes.
    Mr. Hughes. I would echo her thoughts on this.
    I would also say that I don't think that Europe ends at the 
United Kingdom. I think there is a lot of examples from Denmark 
and Germany and Sweden where you can take CVE programs that 
work.
    Ms. Watson Coleman. Thank you.
    Mr. Hughes. We also have the benefit of PReVENT's 10-year 
track record----
    Mrs. Watson Coleman. Thank you.
    My last question, I know I am really over here, but I thank 
you for the Chairman's indulgence.
    Mr. Cohen, does this proposal do what it needs to do as it 
relates to our concerns about those who are radicalized 
differently and are directed towards hate crimes of minorities 
and religious minorities?
    Mr. Cohen. I don't have the same experience that Ms. 
Pandith or Mr. Hughes has. I am a little skeptical, and I do 
think that it is important that we have evidence-based 
programs.
    Mrs. Watson Coleman. Thank you, Mr. Cohen.
    Thank you, Mr. Chairman, for your indulgence.
    Chairman McCaul. Thank you. I just want to make a point. I 
think we agree on the same premise.
    You asked me in a prior hearing: Mr. Chairman, I would like 
to explore what more can be proactively done in identifying and 
intervening at an earlier stage. That is all I am trying to do 
with respect to this hearing and with respect to this 
legislation.
    Mrs. Watson Coleman. Mr. Chairman, if I just might----
    Chairman McCaul. The Chair recognizes----
    Mrs. Watson Coleman [continuing]. Respond.
    Chairman McCaul. Sure.
    Mrs. Watson Coleman. I appreciate that. I am just thinking 
that we are moving a bit prematurely and that the pathway that 
are you are discussing is absolutely on track. The fact that we 
are moving so quickly from this to that, I think, is what gives 
me tremendous pause. I think that we have an opportunity to do 
it better. Thank you very much for hearing me.
    Chairman McCaul. Well, and I respect your opinion.
    Again, we have been working for 6 months on the bill.
    But, with that, Mr. Perry is recognized.
    Mr. Perry. Thank you, Mr. Chairman.
    Mr. Cohen, I was heartened by a portion of your testimony 
where you talked about families and religious institutions 
kind-of taking the lead and being a part of the solution. I 
couldn't agree with you more, at least as far as being part of 
the solution. But I do think that there is a role for the 
Department of Homeland Security to play in leading. I think 
that this hearing is to discuss that very fact.
    Now, just to kind of give you a vignette to have a colloquy 
with you, if you were having some work done on your home on 
your roof, and your roof was open. You left for the evening or 
something for dinner. You came back. You saw storm clouds 
brewing on the way home. But as you got home, you notice your 
house is on fire. So do you call your roofer, or do you call 
the fire department?
    Mr. Cohen. I would call the fire department.
    Mr. Perry. I agree with you completely. So we are on the 
same page. So let me talk to you about one other thing before I 
get into some statistics.
    This I am reading from a website: ``Today Don Black,'' 
which I think you said you are aware of, ``Don Black struggles 
with a continuing decline in site visitors, chronic financial 
problems, and his own health issues.'' That is Don Black from 
Stormfront. Right?
    Mr. Cohen. Yes.
    Mr. Perry. That is on your website.
    Mr. Cohen. I am sure you are right.
    Mr. Perry. Yeah. But you just sat here and said in your 
testimony that their visitors to the website is increasing, but 
your website says they are decreasing.
    Mr. Cohen. That is not what I said. What I said was the 
number of registered users of Stormfront had increased by 50 
percent over the last 5 years from below 150,000----
    Mr. Perry. So it is increasing.
    Mr. Cohen [continuing]. To over 300,000.
    Mr. Perry. So it is increasing.
    Mr. Cohen. The number of registered users. That is what I 
said.
    Mr. Perry. But it says here ``decline in site visitors.''
    Okay. Anyhow, look, we are talking about an issue of 
violent extremism, period. There is a prioritization, and there 
is a matter of scale. We already agree today that with the 
house fire burning scenario. Right? We kind-of agreed that 
there is a concept of scale here. So, in that, you, I am sure, 
know that ISIS-linked plots against Western targets has tripled 
in 2015. Home-grown jihadi terror plots in the United States 
has tripled in the past 5 years. Foreign fighters in Syria and 
Iraq has gone up 80 percent. Arrests of ISIS supporters in 
America is up five-fold. I continue. More than 4,000 Westerns 
and 200 Americans have traveled or attempted to travel to join 
Islamist terrorists in Syria. It has doubled in the last year. 
We have got 18 countries or territories, including a long list 
of the 18 which have ISIS-linked or al-Qaeda-linked operations 
in their country.
    I think what we are trying to say here is, is that we see a 
problem that is growing, and it is incumbent upon us to do 
something about it. In a hearing that I had last week on 
homeland security, they listed one of the major threats as 
climate change. It might be a threat. The question is, is it 
the business of this Department of Homeland Security when they 
ask for funding for climate change but don't ask for funding--
or haven't asked for funding--for countering violent extremism, 
and is that the right thing to do? This legislation seeks to 
clarify and remedy that.
    Now, also in the remaining time that I have, I agree with 
you when you were flummoxed, when you were vexed by the fact 
that it was not listed as terror in South Carolina. But I want 
to just make sure we broaden the conversation and add the scale 
to it. It was also not listed as terror at Fort Hood. Also not 
listed as terror when a gentleman, I don't know if I will call 
him that, when a terrorist in Oklahoma beheaded a women and was 
on his way to beheading another one. That is why we are having 
the hearing, sir. That is why this is an issue. So we can focus 
the efforts of the taxpayer, of the Federal Government, 
appropriately.
    Finally, and with the time remaining, sir, with all due 
respect, the Family Research Council has an opinion that I 
imagine you disagree with, and that is the beauty of America. 
We can disagree. But do they advocate for violence associated 
with their opinion?
    Mr. Cohen. Are you asking me now?
    Mr. Perry. Yes. I am.
    Mr. Cohen. I have never said otherwise. That is correct. We 
have never said they advocate violence.
    Mr. Perry. Okay. So they don't advocate for violence. So we 
understand there are differences of opinion. That is the great 
thing about America. But when we are talking about opinions 
that are linked to violence, and so there is a credibility 
issue when the Family Research Council is listed as a terrorist 
organization----
    Mr. Cohen. Well, we didn't list them as a terrorist 
organization.
    Mr. Perry. Well, as a hate organization.
    Mr. Cohen. You know, there are lots of organizations that 
we list as hate organizations because they vilify people for 
immutable characteristics. The one thing I would point out is 
that when you constantly vilify kind-of the LGBT community, is 
it really a surprise that that is the community that is most 
likely to be victimized by hate crimes in our country? I don't 
think so.
    Now, does Tony Perkins say we ought to go out and beat gay 
people? Of course not. But when you describe gay people as 
vile, as disgusting, when you put out false propaganda about 
them, you know, I think it doesn't help.
    Mr. Perry. Well, again----
    Mr. Cohen. If I could say one last thing.
    Mr. Perry. Absolutely, sir.
    Mr. Cohen. We have never, as I explained, as Mr. King 
pointed out, and I appreciate it, we have never tried to 
minimize the threat of Islamic extremism ever. You know, so I 
think much of what--I am not sure--I felt like there was a 
straw man that you were attacking and that wasn't me.
    Mr. Perry. No. I am not here to attack you. I just want to 
make sure the record is clear and that the intent and the 
motivation for this hearing, for this mark-up, for this bill is 
clear, is that we want to deal with violent extremism wherever 
it comes from.
    Mr. Cohen. I think you should----
    Mr. Perry. To also acknowledge that there is a matter of 
scale. There is a prioritization. In the military, we have a 
50-meter target, you have got a 300-meter target, you have got 
1,000-meter target. The 50-meter target with the weapon that is 
firing at you is a little more important than 1,000-meter 
target is what we are saying. The stats that I gave you show 
that we have a 50-meter target that we need to address. That is 
the point.
    With that, I thank you, and I yield back.
    Mr. Cohen. Thank you.
    Chairman McCaul. The Chair recognizes Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    I would like to thank the witnesses. It is always great to 
see Ms. Pandith, whose uncle, deceased uncle, was a dear friend 
of mine. He said the--we worked together when he was setting up 
the Islamic Center of New England. Thank you for your continued 
work in particular.
    We have also had you as a witness in our subcommittee on 
Foreign Affairs, and there is an overlap of many issues here. I 
must say, because I am not going to miss an opportunity, when 
anyone dismisses climate change and the fact that it is not 
important to violence in the world and wars, I think we should 
all take cognizance that that is not true. It is one of our 
major issues, but the same with scale of issues.
    As a former prosecutor, we can talk about scale all we 
want, but if you are the victim or your family is the victim or 
your community is a victim of any kind-of, this kind-of violent 
action, scale doesn't matter too much.
    But I do want to touch base on an approach that we can take 
that I think is clear to deal with all these issues, and that 
is how much work should we be doing--should the Government be 
doing on trying to give resources and information to family 
members. You know, the first educator and the primary educator 
of any child is their mother. I think there is--we have much 
more to do, although we are doing some things in this regard, 
to train mothers and parents, family members, to spot signs of 
extremism, however that extremism is manifested or that 
radicalization. So I would like to ask Ms. Pandith, what could 
we be doing more in that particular area?
    Ms. Pandith. Thank you, Mr. Keating. It is a pleasure to 
see you again.
    Very quickly, I would say two things on the issue of women, 
and that is why I included it in my testimony. We have not--
that has been a black hole for our Government. We haven't seen 
how women get radicalized, and we are just catching up to that 
right now, frankly, and it is very, very dangerous when all of 
a sudden we see three young girls in Denver try to make their 
way to Syria, and everybody in America is surprised that this 
is happening. Their bad guys are trying to recruit boys and 
girls. We need to understand that, and that is happening 
globally.
    But you said something very important, and that is a mother 
is a child's first teacher. Toward that end, women can be used 
in two ways: No. 1, we need to understand how they are getting 
radicalized. Therefore, the kind of counternarratives that are 
going to work specifically for them. But we also need to 
mobilize them into a movement to push back against the ideology 
of the extremists because they see what is happening to their 
children first. What is happening inside of a home matters.
    The State Department actually partnered with me and the 
Institute for Strategic Dialogue on an initiative called Women 
and Extremism for specifically that reason. You will remember 
that our Government also helped seed Sisters Against Violent 
Extremism, SAVE, the SAVE network, for the same reasons. But I 
do think, sir, we need to do a whole lot more to understand 
specifically what is happening with women, not just in our 
country but around the world.
    Mr. Keating. Yeah.
    Yes, Mr. Hughes.
    Mr. Hughes. I just want to react a little bit on that. You 
brought up Denver. This time last year I was in Denver at the 
invitation of the imam of Abu Bakr mosque and the U.S. Attorney 
and the FBI because three of their girls had jumped on a plane 
and ended up in Frankfurt and got turned around. Well, their 
father had called, you know, every phone number in the Denver 
phone book until he finally got a council member who then knew 
an FBI agent who could then call Frankfurt authorities.
    So we went out to Denver, and we sat at the mosque with a 
room full of about 150 fathers and mothers and delivered what 
we called the Community Awareness Briefing. The Community 
Awareness Briefing was essentially an information awareness 
briefing. You explain to people how ISIS and related groups use 
the internet to radicalize and recruit kids. Because at the end 
of the day, that 15-year-old girl, that 16-year-old girl, and 
that 17-year-old girl, they were learning what they wanted to 
learn on-line. The only echo chamber they had was those people 
on-line. They had no other avenue of people that were saying: 
This doesn't sound right. You should come pull it back.
    We also put it in context too. So our Community Awareness 
Briefing was part of a larger presentation. So we had a school 
official give an internet safety workshop because, let's be 
honest here, a parent doesn't really understand what ask.fm is 
or Kik or any of those type of things. Let's put that in 
context of cyberbullying or sexting, and ISIS as another range 
of threats that you have to be worried about as a parent on-
line. Put it in context like that.
    I would also say that the Community Awareness Briefing, 
though, is, again, going back to those one-off events. So we 
have to figure out a way to scale that up a little bit. Train 
State and locals, train trusted community partners to deliver 
that kind of information. The Federal Government can play a 
role of updating that information for communities.
    Mr. Keating. Yeah. I also believe that--associate with Ms. 
Pandith's remarks, that much of this isn't new. A group of us 
were in the Hollings Center in Europe looking at, you know, the 
root causes. The idea that we are getting pretty good--or at 
least in Boston recently, we are fortunate that two other 
incidents were thwarted by good law enforcement. But we have 
had some success swatting mosquitoes. We have to dry that swamp 
up. That is going to be done through education and the kind of 
things we are talking about here. I would just say that the 
same things I studied years ago on juveniles and juvenile 
delinquency and getting involved with crimes, where this is not 
a loss of a father figure in a household and all those other 
issues were being addressed at the Hollings Center when we were 
talking about some of the real root causes of this.
    I think we have a lot of work to do, but we can build on 
it. I agree, as a final statement, that there while we are 
digging in on these issues more and more, we should be moving 
forward at the same time because we do know enough where we can 
be effective and deal with these issues.
    I yield back.
    Chairman McCaul. The Chair recognizes Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman, and I appreciate the 
testimony of all the panelists here today.
    Mr. Cohen, I have a couple of questions for you, and you 
don't have to worry because we are not going to get into an 
argument. I promise you there.
    The first question.
    Mr. Cohen. Nothing about the fire department either.
    Mr. Katko. No, no fire department.
    Mr. Cohen. Thank you.
    Mr. Katko. Quickly, just from a basic premise, you would 
agree that trying to do something to counter violent extremism 
either from the Islamic side or the domestic side is a good 
idea overall.
    Mr. Cohen. Of course.
    Mr. Katko. Okay. So and, of course, the next step is your 
concern is that there might be too much of a focus on the 
Islamic side to the detriment of domestic terrorism. Is that 
correct?
    Mr. Cohen. That is among my concerns, yes.
    Mr. Katko. Okay. So that is something we got to work out 
going forward. Right? But if we could somehow balance that all 
out, do you think this is a good idea?
    Mr. Cohen. Do I think what is a good idea?
    Mr. Katko. Countering violent extremism, developing a 
program for both domestic and Islamic violent extremism.
    Mr. Cohen. If we can do that successfully without violating 
people's civil rights and have a program that is effective, of 
course.
    Mr. Katko. Okay. Now, yeah, you mentioned civil rights. 
That is a good thing. It is a good segue for what I want to 
talk about next. I am proposing an amendment to this bill which 
would provide a grant program at DHS. The grant program would 
allow community leaders such as yourself or others from all 
over the country, whether it be a domestic- or Islamic-based 
program, to apply to the Department of Homeland Security to get 
grants to have CVE-type activities in their home towns. As a 
general premise, I take it all you panelists would agree that 
is a good idea.
    Mr. Cohen. I wouldn't have any problem with that as an 
experiment, of course.
    Mr. Katko. Right. Exactly. Now, informing the program, we 
have individuals in my amendment proposed to be involved in 
formulating this program, Department of Homeland Security and 
the new office that the Chairman's bill establishes as well as 
the Office of Civil Rights and Civil Liberties. So I take it 
having the input from the Civil rights and Civil Liberties is a 
good idea as well. Right?
    Mr. Cohen. Yes. I think also, of course, before I would do 
any of these things, I would ask the Department of Homeland 
Security what they think about it. You are asking me, just a 
private citizen from the Southern Poverty Law Center. I have 
given you my opinion. I would want to know what the Department 
of Homeland Security thinks, of course, as well.
    Mr. Katko. Right. Of course. Of course, so you want to get 
the input of everybody, but having the input of civil rights is 
a good idea.
    Mr. Cohen. Of course.
    Mr. Katko. Okay. All right. I appreciate that.
    I just want to address one other concern about you that you 
voiced earlier about perhaps disparity with respect to how we 
treat domestic terrorism versus Islamic terrorism at post-9/11. 
Are you familiar with what is called the Joint Terrorism Task 
Forces across this country?
    Mr. Cohen. Yes. Somewhat, yes.
    Mr. Katko. Isn't it fair to say that they were formed after 
9/11?
    Mr. Cohen. Yes.
    Mr. Katko. Isn't it fair to say that part of their marching 
orders included not just investigating Islamic-based threats 
but also to investigate and indeed prosecute domestic terrorism 
as well?
    Mr. Cohen. There have been prosecutions, of course.
    Mr. Katko. So there have been new things put in place after 

9/11 to focus on a domestic terrorism front as well.
    Mr. Cohen. Yes. But there is also, I think, a degree to 
which it is undeniable that the Government has taken its eye 
off that threat after 9/11. I don't think there is any dispute 
about that either.
    Mr. Katko. Well, I can look at it from the prism from which 
I operated over the last 20 years in my career as a Federal 
prosecutor, and I help stand up Joint Terrorism Task Forces, 
you know, in my district, and assisted them on occasion. I know 
that if a case came to me for domestic terrorism, it was never 
ever ignored, ever. In fact, people were prosecuted on a 
regular basis for domestic terror acts, not just that had 
nothing to do with Islamic radicalization. That has happened 
across this country on a regular basis. Hasn't it?
    Mr. Cohen. Of course.
    Mr. Katko. Okay. So this whole dialogue that somehow we are 
not paying attention to domestic terrorism, it is a matter of 
semantics or a matter of degree, but at the same token, we are 
not ignoring it.
    Mr. Cohen. I don't think we are ignoring it completely, 
but, you know, I think the history at the Department of Justice 
is pretty clear. You know, they had a task force after Oklahoma 
City, and it simply stopped meeting after 9/11. It stopped 
meeting for 13 years. I would say that is proof that the 
Department took its eye off that ball. A group of U.S. 
attorneys, Conner Eldridge, the attorney from the Western 
District of Arkansas, was instrumental in getting that back on 
track. But we had a 13-year hiatus, and that seems problematic 
to me.
    Mr. Katko. It is fair to say, though, that some of that 
slack had been picked up by the Joint Terrorism Task Forces, 
which didn't exist before 9/11?
    Mr. Cohen. I suppose some of it had to.
    Mr. Katko. Sure. Okay. All right. Well, I appreciate that.
    I yield my time back, Mr. Chairman.
    Mr. Cohen. Thank you.
    Mr. Katko. Thank you.
    Chairman McCaul. The Chair recognizes Mrs. Torres.
    Mrs. Torres. Thank you, Mr. Chairman.
    I want to thank the three of you for being here today.
    Ms. Pandith, I had an opportunity to hear you at a training 
that we had for new Members of Congress. I think it was back in 
November. I have asked the FBI to join my law enforcement 
community in my district to talk about, you know, this specific 
issue. I am a little bit disappointed that we continue to only 
talk about Islamic issues when the biggest threats that we have 
in my community and more urgent in my community are the drug 
cartels, are the gangs that are recruiting our very, very young 
kids and ordering them to shoot at police officers as a way to 
join a gang.
    So, you know, from your perspective, I think that I heard 
you say that there is no profile; there is no social/economic 
link. I think because we have seen the diversity of local home-
grown terrorists, but there is a common denominator. That 
common denominator is hate, whether it is racial, religious, 
political, that is a common denominator that these have. What 
is your advice in putting together this type of community 
engagement, this type of community training, for our law 
enforcement, understanding that, you know, I spent, by the way, 
17 years as a 9-1-1 dispatcher? People call because they have 
issues with their children that they feel are at risk. There is 
nothing that we can do for them because they haven't committed 
a crime.
    So there is a lot of frustration there in the community 
that, why should we wait until someone commits a crime, you 
know, to engage them in a dialogue? I would like to hear a 
perspective from the three of you if it is possible.
    Ms. Pandith. It is nice to see you again. I would agree. 
Obviously, there is an ``us and them'' narrative that has taken 
hold of our country that has actually gotten more acute in the 
last few years, and we are seeing it play out in all kinds of 
ways. So this is by no means saying you need to focus only on 
what is happening from AQ or ISIL or al-Shabaab.
    But I want to put things in perspective, and everything--we 
all come to the table with our own thing. There are 1.6 billion 
Muslims in the world. That is one-fourth of our planet. Sixty-
two percent of that number is under the age of 30. That is 
almost a billion people. That is the pool from which the bad 
buys are recruiting. Because they are digital natives, for all 
the things that we have talked about in the last, you know, 
hour-and-a-half, it makes it really present to me.
    I see things happening--you know, Mr. Keating was talking--
I mean, I am from Massachusetts. I was--I had been on Boylston 
Street. That was very personal to me what happened at the 
Boston Marathon. But I also am a world citizen in the sense of 
I can see the connectivity with this millennial generation 
around the world. So it is a very real threat to me. I think 
that this us/them hatred if you want to call it, the narrative, 
manifests in a whole lot of ways. I think America can and 
should do better in decreasing the hate as you defined it.
    But I think to put a really direct response to you, you 
can't just do it from Government. It has to be communities 
themselves that are actually doing a whole host of things to 
decrease that sort-of high-pitch shrill.
    Mrs. Torres. So are we putting the cart before the pony 
here by not waiting for the reports to be published on helping 
us identify these common factors?
    Mr. Hughes. I don't think you can wait. I think that last 
point you made about the space between before an illegal act is 
important because I don't think it is fair to ask a family 
member or a Government official to watch a train wreck happen 
in slow motion and know you can't do anything in between. Two 
weeks ago, I was in Dulles. I met a father whose daughter----
    Mrs. Torres. I am going to stop you there because my 
experience is very different in the community.
    The real-life experience is around budgets, and we do not 
have enough personnel to go chase these types of calls.
    Mr. Cohen, what can you say about--a response from you, 
please?
    Mr. Cohen. I am not sure I have a lot to add. You know, we 
are talking about extraordinarily complex problems. I think, 
you know, it is important, having studied them very, very 
carefully, I do think that, you know, there are a lot of common 
problems that you talked about with gangs and people drifting 
into white supremacy and who are maybe drifting into radical 
Islam. We need to wrap sometimes services around folks who are 
at risk of going down that path.
    Mrs. Torres. Thank you. I just don't want to lose this 
conversation around--only around Islamic or white supremacists 
because there is a lot more happening in our communities. Thank 
you.
    Chairman McCaul. The Chair recognizes Mr. Walker.
    Mr. Walker. Thank you, Mr. Chairman.
    Ms. Pandith, I have been very impressed looking through 
your testimony and the amount of years and research you have 
put into this. I think you have done a great job in sharing 
this. I would like to ask you, in fact, in your testimony you 
discuss, ``credible voices'' needed to carry out the counter-
messaging efforts into these extremists and these terror 
groups, whether they be domestic terrorism or whether they be 
those of international, radicalized, whatever it might be. 
Would you be able to expound maybe in your opinion, when you 
talk about credible voices, what is that profile that we are 
looking for when it comes to those people that can get that 
message back?
    Ms. Pandith. Thank you for your kind words. Credible 
voices, they come in all shapes and sizes, and there is no 
profile for them either. What is really important is we go 
really, really local, and we don't take Government saying, we 
think we know what a credible voice is. You have to ask 
communities themselves.
    As a result, you are seeing all kinds of voices that, at 
first glance, people think: Are you kidding me? A hip-hop 
artist, an athlete, a graffiti artist, they are going to make a 
difference to some kid not moving along the conveyer belt of 
radicalization? In fact, that is true. If you go to the 
neighborhoods, if you go to the communities and you ask them, 
what are the voices? Who are the people that make sense? Those 
are the voices that we need to lift up.
    The mistakes we made right after 9/11, sir, or that we 
thought that the guy with the longest beard and the highest hat 
was the one that was the person that was going to be able to 
tell that young kid they shouldn't be bad. It doesn't work like 
that. These are digital natives. These are young kids who learn 
from each other. So a credible voice is someone local, organic, 
and makes sense for that neighborhood. What may make sense here 
in Washington, DC, may not make sense in McLean, Virginia.
    Mr. Walker. Do you feel the United States should find a way 
to maybe help support, even if it is not necessarily funding, 
but maybe an awareness for those that are nonprofits, religious 
organizations, at building some of those bridges?
    Ms. Pandith. I couldn't agree more. That is the biggest 
mistake we have made. There are all kinds of efforts, thousands 
in fact, around the world of people who are doing exactly that. 
There is no money, and there is also fatigue, sir. There is a 
great deal of fatigue because those people who have been trying 
to raise money to do it on their own, they don't have enough 
money, and they keep hitting their head against the wall 
saying: This is a really good program. It is going to work 
organically, but they have no funds to support it.
    Mr. Walker. I can speak only to my experiences, and we have 
worked in the inner cities of Cleveland, New York, Baltimore, 
places like that, trying to talk about hope and opportunity. 
What--under this topic of credible voices, I would like to 
circle back just a little bit in the time that I have remaining 
and talk about some unfair practices that discredit some good 
voices. In fact, I believe Mr. Cohen, under oath today, that 
you said Tony Perkins said gays were vile and disgusting. I am 
concerned about those kind of comments, which only increase the 
amount of tension between the different groups.
    But also something earlier that was mentioned, and I just 
want to make sure that we are clear on this record because I 
think from a philanthropist and someone who has brought a lot 
of good things to our medical community is Dr. Ben Carson. I 
believe you said earlier that you did not list him as an 
extremist in an organization. But let me read your words, if I 
could, from earlier this year or from a statement released by 
your organization. It says: In October 2014, we posted an 
extremist file of Dr. Ben Carson. This week as we have come 
under intense criticism for doing so, we have reviewed our 
profile and have concluded that it did not meet our standards, 
so we have taken it down and apologized to Dr. Carson for 
having posted it. We have also come to the conclusion that the 
question of whether a better research profile of Dr. Carson 
should or should not be included in our, ``extremist files,'' 
is taking attention from the fact that Dr. Carson has made a 
number of statements that we believe most people would conclude 
as extreme.
    My concern is, is that when you guys put these kinds of 
labels on people as the Member Duncan talked about earlier, 
sometimes these groups that are reading this, they are inspired 
by this stuff. As we have talked with Ms. Pandith about 
credible voices, I think we all have responsibility making sure 
that we are not overshooting a runway when listing those as 
extreme when if we were to look a little closer, they are not 
in the extreme.
    With that, Mr. Chairman, I yield back.
    Chairman McCaul. I thank the gentleman.
    The Chair recognizes Ms. Jackson Lee.
    Ms. Jackson Lee. Let me also add my appreciation to the 
witnesses that are here, and let me thank both Mr. Thompson and 
Chairman McCaul. Mr. Thompson for calling this hearing, and Mr. 
McCaul joining in and for the addition.
    Mr. Cohen, we have interacted certainly over the years.
    Ms. Pandith, we have certainly interacted by your service 
in the administration and most recently your participation in 
this effort by the administration of countering violent 
extremism.
    I happen to believe that there is a pathway of commonality. 
Just as, if I might deviate, as we begin to look at criminal 
justice reform and raise the question of issues dealing with 
law enforcement, someone might take the viewpoint the Nation is 
against law enforcement or groups are against law enforcement, 
and that is not true. They are the finest men and women in this 
Nation who put their lives on the line every day, but all of us 
can be subject to being better and finding a pathway to being 
better.
    I think the effort by my Ranking Member is to make our 
approach to countering violent extremism one that is worldly 
and that is responsive to a myriad of issues that may come 
before us.
    So let me start with a question to you. I think your 
testimony indicated that the youth that are engaged around the 
world and those who may be radicalized here, there is a sense 
of trying to be validated. Maybe you can expand on that 
because, how do we pierce that particular veil? How do we get 
in front of them being validated in some other way? The other 
is that I am concerned, is that in my course of representing 
constituents, I have dealt with a lot of groups that range from 
the array of communities from Pakistani community to the Arab 
community and then subsets. When I say that, people are from 
Egypt, people are from Kuwait, Palestinians, and others, and 
they all are worthy of recognizing efforts that are being made. 
For example, there is CAIR. I ask the question, and my concern 
is, do you read in this legislation any exclusion? Is there 
going to be some litmus test to leave groups out because 
someone has a disagreement or someone accused a group of some 
activity? When I say that, the group, somebody that had their 
name in the group, and they were individual actors. So if you 
can answer that. Let me jump to Mr. Cohen just so that the bell 
doesn't ring on me for my questions.
    But let me say that the moment in history always seems to 
suggest that we are taking a moment in history, and we are 
imploding it, or we are blowing it up. I think it is important 
to note that Hispanics, African Americans, Asians, and 
different religious groups, people of Jewish faith have had a 
constant attack over a period of history. When I say that, 
not--when I say that some will take it out of context and say--
and I am saying people have been attacked every day. No. I am 
saying it has been an underbelly of this country. It is only 
when moments like Mother Emanuel come, that there is a forum to 
be able to speak. For if we spoke of every discriminatory act 
against us, most of our colleagues and people and 
constituencies, would say, what? They live in complete horror 
and fear or complaints.
    So I think it is important to note that this is a moment, 
but you have documented over the period of time. I have been 
studying Jeff Davis--Jefferson Davis, who is the President of 
the Confederacy, and he, in his era, continues, that generally 
born, the slaves are barbarian masters. These are kinds of 
names that have been in America's psyche or fabric, and they 
have lived on. The flag has lived on, the rebel flag, and the 
three boys in Mississippi.
    But we, as Americans and happen to be African Americans, 
have gone on to live. We have taken the moment, and then you 
have seen us go on to live. What we are saying now and what I 
believe my Ranking Member is saying, that if you are going to 
look at the issues of terrorism, I think Mrs. Torres was 
talking about gang activities, if I heard her correctly, or 
other instances of terrorism, we are just saying, open it up. 
Just as someone said this is a moment for a discussion on race. 
It is not just a moment; it is that a horrific incident 
occurred, and we are now saying that all of those who mourn 
that didn't look like me, what a celebration, now we can come 
together and talk about what we have experienced over our 
wonderful life here past slavery in this country.
    So my question to you is as the New York Times has said, 
and I just want to read this: Non-Muslim extremists have 
carried out--a New York Times article dated June 24--have 
carried out 19 such attacks since September 11, terrorist 
attacks, in the latest count compiled by Mr. Sterman a New 
America program associate. But by comparison, by comparison--
and let me correct that. Non-Muslim extremists carried out 19 
such attacks since September 11. By comparison, 7 lethal 
attacks are carried out by Islamic militants in the same 
period. No one would ever have paid attention to this 
statistic, but it is real. Obviously, people died at the hands 
of non-Muslim extremists.
    Mr. Cohen, I am not asking you to be the Department of 
Homeland Security. You have done this work valiantly. Is it 
worthy of expanding the concept of countering violent extremism 
to a myriad of groups that you have covered over the years of 
your work? If I could get--be indulged for Ms. Pandith and Mr. 
Cohen to answer those questions.
    Mr. Cohen. I think it is essential, Ms. Jackson Lee.
    Ms. Jackson Lee. Ms. Pandith, we will come to you next on 
the question I asked.
    Mr. Cohen. I think it is essential. I think that these are 
teachable moments, and before complacency, until we all fall 
back--until we would have to worry about going back and 
becoming complacent, we have to take advantage of these moments 
and examine ourselves. I think that all forms of extremism 
ought to be taken seriously. I have never said that one is more 
important than the other. I have never said that one is 
comparable to the other. I think it is really critical, though, 
that we don't ignore any of them.
    Ms. Jackson Lee. Ms. Pandith.
    I thank the Chairman and Ranking Member, for indulging.
    Ms. Pandith. You asked about, your words, validating youth. 
I would just tweak that slightly. It is really about an 
identity crisis that's happening to these young people under 
the age of 30.
    So the bad guys are filling the vacuum when they are asking 
questions about who they are. So what we have to do is to flood 
the marketplace with counternarratives to the narratives of the 
extremists in a multitude of ways so that these young youth 
have a place to go. This isn't just Government doing this. This 
is what we were talking about in terms of communities 
themselves finding ways to be able to tap into what is 
happening to these young youth.
    Furthermore, you asked about leaving different groups out. 
You know that I worked in Government traveling around the world 
engaging in Muslims. What is critical and very, very important 
is that we don't make a hierarchy of who the most Muslim 
Muslims are. That means in our country too, that you open up 
the diversity of Muslims across America, you listen to all 
voices, and finally, you don't just listen to a couple of 
groups in America that try to speak for the most diverse group 
of Muslims anywhere in the world, and they live here in 
America.
    Ms. Jackson Lee. Just a quick, but it means that if these 
advocacy groups are there, you don't exclude them either?
    Ms. Pandith. No.
    Ms. Jackson Lee. They have a place at the table?
    Ms. Pandith. They do.
    Ms. Jackson Lee. But you just want it to be expanded. I 
assume you are not against the domestic terrorism concept 
dealing with right-wing extremists being expanded as well?
    Ms. Pandith. Absolutely not.
    Ms. Jackson Lee. I thank the Ranking Member and Chairman 
for their indulgence.
    I yield back.
    Chairman McCaul. I thank the gentlelady. Let me just say, I 
completely agree. That is why we scheduled the hearing to 
focus, not just on foreign terrorism, international, but 
domestic. That is precisely why this legislation--and you and I 
have talked about the bill itself before, it expands the role 
of the Department to all forms of extremism, and I think that 
is an important point to make.
    The Chair now recognizes Mr. Donovan.
    Mr. Donovan. Thank you, Mr. Chairman.
    I appreciate you holding this hearing to address the need 
to counter the growth of violent extremists in the United 
States. I think everyone here, my colleagues and the witnesses 
agree that the approach so far has failed to stem the instances 
of violent terror plots both domestic and internationally.
    I have a few quick questions I just want to ask--because I 
know we are going to vote in a little bit--to the entire panel.
    I heard you say, Ms. Pandith, about the credible voices. 
That, to me, sounds general. You get someone, a hip-hop artist 
or something. I don't know if this monster that created this 
horrific event in Charleston would have listened to anybody. 
But closer to home, and I don't know what his parental 
situation was, but first of all, how does Government help to 
identify these people? Second, once they are identified, what 
do we do?
    Kathleen Rice and I were prosecutors before this. John 
Katko was. Many times families come to us and say: My kid 
hasn't done anything yet, but my kid is on the verge of 
something. I think on a parochial level and a lower level, as 
you said before, is where we can intervene. So, No. 1, how 
could Government help identify possible people before they 
commit a horrific event? Second, what is this best intervention 
that we could help people to prevent another horrific event, 
either what happened in Boston or what happened in Charleston?
    Ms. Pandith. The most credible voices on the planet are 
former extremists of all kinds who can tell their stories and 
explain how they get radicalized. There is only one network in 
the world on the planet today that has all of the former 
extremists from right wing all the way to former al-Qaeda. 
Those voices make a difference to people.
    If you look here in our own country, we haven't told the 
story of the Tsarnaev brothers. We haven't actually explained 
to the communities what happened along the way. They are the 
most credible example of what can happen to them. So when we 
look at who our credible voices, they are former extremists, 
which are the No. 1 best credible voices, but then you have to 
ask questions in the community.
    What is working for your youth? If they will listen. Who 
has value in your community? Then, to your second point, what 
do you do with that information? So you have identified these 
credible voices, so what? If the American Government takes 
these people and puts them on a pedestal, and says, ``Go, go 
listen to them,'' it is not going to do anything. You know that 
and I know that. But if you go to the communities and you say: 
Wow, okay, these are the credible voices--how would we use 
them? What would make sense for your community? They often have 
really great ideas on-line and off-line to use the voices and 
the experience of these credible voices. What they don't have 
is the money to jump-start these initiatives to go forward, and 
we don't have the things that are already existing now to scale 
up massively. That is where the question about granting and 
money comes in. Some of that is American Government money, 
let's say, but a lot of it has to be outside of Government 
money, and we have failed in our country to make the case to 
Americans, in general the most philanthropic group of any 
country in the world, that extremism is your problem too, and 
you can actually help deal with this. The way we looked at HIV/
AIDS, the way we looked at other global threats, philantropic 
money can make a difference on the ground to Americans 
themselves.
    Mr. Donovan. Mr. Hughes, just to follow up. When you went 
to Denver and spoke to those parents, if those parents had 
identified their children before they got on that plane, what 
could we do to help them? What intervention works before those 
three young girls get on that plane?
    Mr. Hughes. Sure. So there is no systematic intervention 
program in the United States. You have pockets of things. When 
you look at something like Montgomery County, Maryland, has a 
small program there. There are other organizations that have 
booklets and kinds of things that look at this, but no 
systematic way.
    So if I am a parent that is worried about my kid, my only 
option is to do nothing or, you know, call as many people as I 
possibly can until I get somebody that is going to understand 
this thing. I don't think it is tenable to ask parents to 
either do nothing or have their kids spend 15 years in jail.
    I think there is a way to figure out the middle area. You 
bring social workers. You bring mental health professionals 
because a lot of these kids have mental health issues. You 
bring trusted mentors, soccer coaches, things like that. 
Religious leaders if you need to, but maybe you don't.
    You set up a system with checks and balances that 
understand there is Privacy Act concerns on this. There is 
legal liability on this. You know, if a kid, if you are 
concerned about it, are you legally liable to tell law 
enforcement about this? These are difficult issues to tackle, 
and we haven't had that conversation. So, in light of that, we 
are either doing nothing or arresting. I don't think that is an 
acceptable answer.
    Mr. Donovan. I yield back my time, Mr. Chairman.
    Chairman McCaul. The Chair now recognizes Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you to our witnesses today. Mr. Chairman, as you 
know, I have been a Member of this committee since its 
inception after we created it in the Congress after the 9/11 
incident. I am very troubled today by several things that this 
committee is doing.
    I think it is great that we are having a hearing on this 
issue, but I do have a problem with the fact that at 11, which, 
of course, we have now gone through this, and I am assume that 
we are probably going to continue and do the mark-up on H.R. 
2899, that we would have a hearing, the only hearing on it, 
really, to go right into a mark-up. From a procedural 
standpoint, I think that is, as has been noted by other 
Members, makes it very difficult for Members to really get a 
good feel for where we should be.
    Chairman McCaul. Will the gentlelady----
    Ms. Sanchez. I am going to have several points.
    Chairman McCaul. Well, that is incorrect. We had a full 
committee hearing in February on this issue countering violent 
extremism. It has come up at multiple hearings.
    I yield back.
    Ms. Sanchez. I am told that it was a threat, as I recall.
    Chairman McCaul. That hearing notice itself, countering 
violent extremism.
    Ms. Sanchez. But the witnesses were about threats. Anyway, 
Mr. Chairman, please.
    Chairman McCaul. I am correcting you.
    Ms. Sanchez. Well, we have a difference of opinion.
    Second, you said earlier when I asked you about where the 
Department was with respect to supporting 2899, and I asked you 
specifically, are they for that bill? Are they supportive of 
that bill, or are they just supportive about obviously, trying 
to get to this terrorism, whether it is international or 
domestic? With all due respect, Mr. Chairman, you said it was 
with respect to the bill. I am looking at the letter that was 
sent to you by Secretary Johnson where nowhere in that does he 
mention in any way H.R. 2899.
    Third, I am always concerned when we are thinking about 
making new bureaucracy, especially in a Department where we 
have some of the lowest morale, where we have had issues with 
respect to headquarters and where everybody is in different 
places with a whole array of having put 22 agencies into one 
Department at the start and now creating more agencies and more 
pieces of the bureaucracy. I didn't vote for the Homeland 
Security creation Department bill, but here we go adding on to 
the whole problem.
    By the way, in the letter from the Secretary, he mentions 
that research on this is done in the Science and Technology 
Directorate; engagement is done by the Office of Civil Rights 
and Civil Liberties; and the Office of Infrastructure 
Protection within the National Protection and Programs 
Directorate; threat analysis is done by the Office of 
Intelligence and Analysis; training for Federal, State, local, 
Tribal, and territorial law enforcement by the Federal Law 
Enforcement Training Center; grant support by the Federal 
Interagency Management Agency. I mean, he lists all of the 
different types of pieces within the existing framework that 
are actually working on this.
    Last, let me tell you that I have a problem with a bill 
like 2899 when it goes after a particular group. The reason I 
say this is, remember, that I come from the district where the 
FBI put in undercover agents to go into our mosques and 
infiltrate our Muslim youth in my district and initiate and 
tried to entrap, in a sense, these youth to do terrorism or to 
radicalize. Guess what? We caught it. We caught it. The 
interesting thing was that my imams, my people heading those 
mosques, when they found out that this was going on with their 
youth, actually turned in the perpetrators of doing this to the 
FBI, unknowingly turning in the people the FBI had put in those 
mosques.
    So I do have a problem when we are singling out just one 
group.
    Chairman McCaul. Will the gentlelady point out in the bill 
where it singles out a single group?
    Ms. Sanchez. You know, we can----
    Chairman McCaul. Because that doesn't exist. It says all 
forms of extremism. It does not point out a specific group.
    Ms. Sanchez. You know, Mr. Chairman, if we are going to 
mark up the bill----
    Chairman McCaul. If you are going to make an allegation, be 
correct in your allegation.
    Ms. Sanchez. If we are going to mark up the bill, I will 
have a lot to say during the mark-up.
    Chairman McCaul. We are not in the bill.
    Ms. Sanchez. When we get to that bill----
    Chairman McCaul. These attacks, I have to respond. Be 
correct in your allegations.
    Ms. Sanchez. Mr. Chairman, when we are at the mark-up, I 
will definitely talk about where and how that happens because I 
will have several discussions on that.
    Anyway--and I yield back. I just wanted to voice my 
concerns with respect to not having a process, I think, that 
is--with all due respect, Mr. Chairman, because you and I have 
worked on many things before. I just find it rushed from my 
perspective.
    Thank you, and I yield back.
    Chairman McCaul. I do have to respond briefly.
    We had a committee--a full committee hearing on February 
11, countering violent extremism. We have had many hearings to 
talk about the issue. The bill says all forms of extremism. It 
does not single out a single group. Now, we streamline it--to 
your point about it being so diverse and so many different 
departments, that is exactly what the bill does. We streamlined 
it and prioritized.
    Finally, in my conversations with Mr. Johnson, he expressed 
his general support for legislation that deals with this issue.
    With that, the Chair now recognizes Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman.
    I appreciate your leadership on this issue, and I will just 
comment to say, although we are hearing a lot about not wanting 
to rush anything today, I think the situation is urgent. I 
thank our witnesses for highlighting the urgency of the 
situation. We have certainly seen the uptick going on for the 
last few years and then more recently in the last 6 months.
    If we continue to work at the speed of Government and 
bureaucracy, as we are watching this threat metastasize and 
grow in a very sophisticated way, then they are moving at the 
speed of broadband, as we said earlier, then we are going to 
continually be behind. So I really appreciate the testimony 
today and the leadership on this issue because we have to 
address it.
    You know, we talk about the number of people that are 
working on it. I appreciate the discussion on resources. 
Previously, Government officials said there was a total of 16 
people across the Government that were working on countering 
violent extremism, which included 6 from DHS, plus NCTC, DOJ, 
and others. Recently those officials have not given us some 
great, and I am being sarcastic, news that the number in DHS is 
up to potentially 15 people, which would--I am sorry. From 6, 
up to 15, which would then put the number at 24, 24 total 
people across the Government that are focusing on this issue 
with 20,000 IRS agents running around to make sure you don't 
take an improper home office deduction.
    So we know what the number--we don't know exactly what the 
number is, but we know what it is not, and it is not somewhere 
between 16 and 24. So I appreciate the testimony today to talk 
about that.
    I know a lot of issues have been discussed already. I am 
uniquely wanting to hear, Ms. Pandith, from your perspective as 
a woman. You said you have been to 80 countries addressing this 
issue. I have been deployed to many Middle Eastern countries, 
many predominantly Muslim countries myself in the military. I 
am interested to see, especially as a woman, especially when 
you are dealing with some of this fundamentalist views of the 
role of women and the challenges that we have there, just if 
you have had any challenges, even with access and how you have 
been treated as you have been doing this research as a woman.
    I also am interested specifically about whether we need to 
engage differently with girls and young women being recruited 
versus men? It has been noted that of the 600 or so Western 
girls that have traveled to be, you know, recruited to Iraq and 
Syria, only 2 have made it out, where other reports show that 
up to 30 percent of the male foreign fighters are actually 
flowing out. So, you know, while men may thinking they are 
signing up to fight, women are signing up to be raped and 
sexual slavery. So is there a different element of how we are 
going to address this related to the recruitment of girls 
versus boys?
    Ms. Pandith. So thank you for the question. It is a very 
personal one, but I will answer it for you. A lot of people 
asked me when I was special representative, why did the United 
States Government pick a female, a Muslim, an American to do 
this job? I feel very honored to have had the chance to serve 
my country in this way, and it was a remarkable experience. 
Obviously, traveling to 80 countries, you see a lot, and my 
life will never be the same. Again, I will never see the world 
this way again.
    But on your specific question about being a woman, I tell 
you what, as a senior Government American official, I was given 
access anywhere I needed. But I got to do something that a man 
couldn't do. I was able to go into very conservative 
environments with women and talk with them candidly about what 
is taking place. I would argue that had a man been in this job 
when I was doing what I was doing, they could not have had the 
access.
    Ms. McSally. But were you also able to talk to the men?
    Ms. Pandith. Yes.
    Ms. McSally. Okay.
    Ms. Pandith. There was no issue. I mean, of course, as you 
well know, there are certain countries in the world in which 
there are cultural components. I couldn't always shake the 
hands of the people that I was dealing with. But everybody was 
interested in making sure that they heard--that the American 
Government heard what they were experiencing. They wanted to 
make sure that I could take that back to the Secretary of 
State, and I was able to do that.
    There was never a case--I do remember I was in Sudan at one 
point, and there was a university visit I was going to go to. 
The men and women were going to be in two different rooms, and 
they didn't want to do this. But because I came in, they 
allowed both boys and girls to come together. The Embassy was 
very, very surprised; how did this happen? But there are more 
opportunities like that that did happen that afforded me the 
opportunity--the chance to actually see things in a new way.
    I do want to talk to you about the girls and the women and 
the radicalization and sort-of what they are signing up for. I 
spoke to someone earlier today, Mr. Keating, about this effort 
on how women get radicalized and what particularly is happening 
there. There is far more work to be done, not just about the 
research. Seamus and I agreed. We have done a lot of the work. 
We do know a lot after 14 years. We don't know enough about 
what is happening with the females. You are seeing younger and 
younger girls interested in going to Syria and, in fact, you 
know, radicalizing in different ways, which means that the way 
in which the bad guys are luring those kids in on-line and off-
line is very specific. So we do need to do more around that and 
understand those counternarratives.
    The final point I will say is this: We don't have enough 
female voices globally that can talk to girls about what it is 
that is happening. We are hearing the human rights groups speak 
about the rape, speak about using their wombs as weapons of 
mass destruction, frankly. You are hearing all these 
conversations in ISIS land about what this means for girls, but 
we haven't been able to move those narratives to a place where 
young girls are hearing it and makes a difference for them, and 
we have to do more.
    Ms. McSally. Great. Thank you.
    My time has expired. I yield back.
    Chairman McCaul. I thank the gentlelady.
    The Chair now recognizes Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Hughes, I want to go back to something that was raised 
by my colleague, Mr. Donovan, in terms of what happened in 
Denver and your going there to do that community awareness 
briefing.
    You know, Mr. Donovan asked you about those people who are 
recognizing in their children a radicalization process, and to 
whom do they go to get help? My concern is the parents who are 
not as in tune with their kids and are totally missing the 
signs, and they truly are the first line of defense. These 
community awareness briefings, the one you did in Denver 
obviously came after the fact. I am sure it was well-attended 
because all of a sudden, people are going: Oh, my God, this 
could be my kid.
    But how do you get--Dan and I have tried to do--you know, 
we do community briefings like this, I can't tell you on the 
subject--and 5 or 6 people will show up because it hasn't 
affected them yet personally. So how do we, as part of the CVE 
effort, how do we proactively get people--and Ms. Pandith--I 
have a second question for you, but you were mentioning this as 
well. How do you get a community involved to believe that it 
could be your child or your loved one or your friend or your 
neighbor?
    Mr. Hughes. Stories. Stories matter. I have done about 2 
dozen community awareness briefings around mid-level to large 
cities around the country. I used to do it, and it was just 
attack statistics. So X number of plots of attack military 
bases and X number of cases involve men and things like that. 
People's eyes would glaze over, and no one would listen to me. 
When I started relating this back into a human aspect of it, 
the first American suicide bomber in Syria was a guy named Mo 
at some point in Tampa whose mother helped him get his GED at 
the kitchen table every night. Fast forward a year later, he is 
blowing himself up and killed 19 soldiers in Syria. When you 
make it a human story, people start listening, and you have to 
make it relatable.
    They may not think that it is going to be their kid, but 
they may think it might be their neighbor's kid, something like 
that. You have to figure out a way to make people understand 
that there is an ownership here.
    In terms of how do you get people in the room, it really 
comes down to trust. So if I wanted to go to Pittsburgh, but I 
had no contacts in there, I would call, you know, my community 
friends in Sacramento, who would then call their community 
friends in Houston, who would then call Pittsburgh, they would 
vouch for me. I would go out, and there would be 10 people 
there, but I would pass the test. The next time I would go, 
there would be 100 people because everyone has said: Okay, this 
Government guy, he gets it. He is not going to vilify the 
community on these issues. He is going to talk in a very 
nuanced way about the threat and ways that Government and 
communities can partner on that. Because if you don't do that, 
you have lost your partners in that.
    Miss Rice. Thank you, Mr. Hughes.
    Ms. Pandith, I just have to say that I, as my colleague, 
Mrs. Torres, saw you earlier--actually, late last year in 
Boston, I am sure I speak for--I hope I speak for everyone on 
this committee, massively impressed with you. I think you are a 
voice that has been loud but unheard by most people in this 
country.
    You said that we know--you said in your written testimony 
that we know exactly what needs to be done to counter violent 
extremism. My question to you is: Will another level of 
bureaucracy help do that? You said one of the biggest mistakes 
is not--well, going to communities as the credible voices. But 
you said one of the biggest mistakes is not funding the local 
groups that are within the communities with either Governmental 
money or philanthropic money. But you also give a laundry of 
list of things that you say we can do. So how do we implement 
it? How do we say finally say, yes, you are heard. Someone who 
has traveled, as Ms. McSally pointed out, to 80 countries, you 
have such a wealth of knowledge about exactly what needs to be 
done. How do we implement that?
    Ms. Pandith. That is very kind of you, and I appreciate 
your words. I have really great--we have all worked together. 
There are many of us who have understood from the grass roots--
--
    Miss Rice. I wasn't just pointing out Ms. Pandith because 
she is a woman.
    No offense to you.
    Ms. Pandith. Really great stuff. We did a briefing in 
Boston. But what I was going to say, it is not rocket science. 
That is what I was trying to say in my written testimony. I 
think right after 
9/11, we were alarmed, and we didn't know what to do, and we 
were sort of grasping at different things. But this idea of 
ideology began to take some form. We called it the war of ideas 
at that time. What we did is we pulled back from that, and we 
weren't creative. So we were going at things from a very, as 
you said, a bureaucratic way, and it was really stovepiped, 
people weren't talking to each other.
    You asked a critical question: If you do something in 
Government, where you build a bigger bureaucracy, will it not 
allow the creative juices to flow? That is key. I think you can 
do it right. I actually believe very strongly that because we 
haven't had the kind of leadership in Government where there is 
one-stop shop, really, where does the buck stop? Who is 
accountable to Congress? How do we look at this? It has 
actually become really complicated to do this.
    So in terms of malleability, the things that we can do on 
the ground with money that is not necessarily U.S. Government 
tainted money, how do you actually do it? I think that those 
partnerships that we are building through both trust and 
ingenuity means that we have to open up the gates a little bit 
more.
    We hear a lot about letting a thousand flowers bloom. You 
hear that from people, but at the end of the day, people keep 
bugging me: Well, so can you prove that if you did that for 6 
months, you are going to see change? One of the things that 
Hillary Clinton said to me when I was special representative 
is, I know everything isn't going to bloom, but I want you to 
try. That is what our embassies were able to do. We need to 
flip this. We need our embassies to be able to know that they 
can try experimentally a lot of different things on the ground, 
and we need to give them money to be creative and do it. In 
that way, we can partner in new ways; we can seed new things; 
and you are going to see changes.
    The bad guys are moving unbelievably fast, and Government 
goes unbelievably slowly. So you need that kind of--that gear 
that can move a little bit fast in a very, very nimble way, as 
the gentleman was talking about earlier. It is possible. We 
have seen small-scale answers to this. The problem is 
everything hasn't been hyper-charged to see what it would be 
like to have a momentum consistently 24/7 in that way.
    Miss Rice. Well, I couldn't agree with you more. I mean, 
the other side is very hyper-charged, and we see how effective 
they have been. We have been woefully lacking in counteracting 
that. Thank you all very much.
    I yield back my time. Thank you, Mr. Chairman.
    Chairman McCaul. The Chair recognizes Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman. I have got--I am going 
to do this a little bit different from the way I normally do 
it. I am going to actually give you the opportunity, Ms. 
Pandith and Mr. Hughes, to talk and to respond.
    I have got just a couple of questions, first of all.
    Mr. Hughes, following up on my colleagues' questions about 
Denver, I am still concerned about that because it seems like 
it is after the fact. We got lucky there. Wouldn't you agree?
    Mr. Hughes. Yes.
    Mr. Carter. So why aren't we doing more of that now? Why is 
it that we were there after the fact, after they had already 
been on the plane, and after we got them back? I mean, that 
seems like the logical thing of what we should be doing.
    Mr. Hughes. There is an easy answer to that. Like the 
gentlewoman said, there is a handful of people in the Federal 
Government working on CVE, and there is a shoestring budget 
without a shoe or a string. You literally couldn't be able to 
cover the number of places you want to go to, which is why the 
White House did a pilot program, which they did trial-and-
error, and they have done enough error and enough trial to make 
sure what makes sense in the next type of wave on it.
    Mr. Carter. Before I get to Ms. Pandith, I want to ask you 
one more thing. It is my understanding that specifically, with 
one of the many violent groups that we have out there, when we 
talk about ISIS, that one of the things that we have been doing 
to counteract them as far as the social media is concerned is 
we have had kind of a tit-for-tat approach with the tweets. Is 
that working?
    Mr. Hughes. I would defer to my colleague from the State 
Department on the international side. On the domestic side, I 
think there is a lot more we can be doing. So, right now, you 
have a State Department CSCC program that is doing kind of 
``think again, turn away'' counternarrative programs. They have 
had their ebbs and flows on success on that.
    On the domestic context, when we talk about Americans who 
are watching the stuff on-line, there is at least two things 
the U.S. Government can do tomorrow to figure this out. First 
thing is they need to give community partners the left and 
right latitude of what they can do on-line. So if you are an 
imam from Pittsburgh, and you want to do countermessaging on-
line to a bunch of kids on ISIS, you are not going to because 
you are terrified you are going to end up on a watch list. So 
we need to tell them what the right and left latitudes are, 
what is acceptable to do on-line that you won't run against 
your local FBI office. That is the first kind-of easy thing you 
can do, a 2- to 3-page type of legal guidance from the 
community on that.
    The second thing we can do, and Farah will talk about this, 
I think, is about that convening power. The White House, 
departments and agencies have an amazing ability to bring 
people together. So you can bring social media providers with 
those credible voices that Farah talked about and hope that 
there is something good to come out of this. So credible voices 
know what the message is; social media knows how to get the 
message out.
    I was in Sacramento 8 months ago, and an imam, after we 
talked for a while, he raised his hand and said: Seamus, I am 
going to counter ISIL messaging.
    I said: That is great. How are you going to do it?
    He goes: I am going to hold a phone, and I am going to 
record a video and I am going to explain to them why they are 
wrong.
    I said: That is great, sir. I really appreciate that you 
are interested on this issue, but no one is going to watch it. 
No one is going to watch you with your video camera there.
    But if I can connect you with social media providers who 
know how to use the space, who know how to connect your video 
with--that if type in ``Anwar al-Awlaki,'' you are going to get 
that video that pops up there. There are small little pockets 
of things that we could do tomorrow to solve this problem that 
wouldn't cost a dime.
    Mr. Carter. That is exactly what I am looking for because 
all I have heard today is: We need to throw more money on it.
    I am telling you, I am not going to be in favor of that 
unless I see results.
    Ms. Pandith, you plan to be--to travel to 80 different 
countries. I am so impressed. I have been to two myself. That 
is one too many because I like the one that I have spent most 
of this time in. Nevertheless, I want to hear in the minute and 
10 seconds left that I have here, which for a committee like 
this, that is an eternity, but nevertheless, I want to hear 
specific, specific succinct programs that you have experienced 
overseas that you feel like could work here.
    Ms. Pandith. So I am going to be very biased and tell you 
that we have seeded several programs at the Department of State 
that have promise. When I left the Department of State, I gave 
all my programs to outside entities so that they could bloom. 
One of them is at the U.S. Institute of Peace. It is called 
Generation Change. It has 30 chapters around the world of more 
than 600 young Muslims under the age of 30 who want to push 
back against extremist ideology. Why aren't we scaling that up?
    Another program that we seeded is called Viral Peace. It is 
teaching young kids on-line how to push back in their own 
voices and in their own ways. It is what Seamus said: You can't 
do it in a very hard way. You need to do it from peer to peer. 
It has to be attractive to them. It needs to make sense. So 
Viral Peace is a program that learns how--that teaches kids how 
to push back on-line. It is now living at Harvard University. I 
could go on, sir.
    There are things that we seeded in the United States 
Government with U.S. taxpayer dollars that are living outside 
of Government right now that can be scaled up.
    On the question you asked about efforts in other parts of 
the world, there are hotlines for parents that they can call to 
learn about things. This piece about mental health is 
critically important. We can copy those kinds of things here. 
There are narratives that have to do with culture, and the 
pushback against a monolith of Islam that can come back to our 
country as well because the bad guys want to eradicate the 
diversity of Islam.
    Finally, I would be wrong not to say this to all of you. 
The ecosystem that has been growing for more--for 20 decades--
20 years, 2 decades--is the ecosystem that has allowed this 
stuff to grow. As Americans, we have to be clear about what is 
happening in mosques around the world and with textbooks that 
are being sent by our allies to citizens all over the world 
that is influencing the way these young kids think. That is 
part of it as well, sir.
    Mr. Carter. Absolutely. Well, thank you very much for your 
work.
    Thank you, Mr. Chairman, for this bill because I believe 
our intent is exactly what she is describing here.
    I yield back.
    Chairman McCaul. I thank the gentleman.
    The Chair recognizes Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our panel for the discussion today, the 
testimony. This has been very informative, and it is a 
significant challenge that we face. You know, it is hard to 
prove what you have prevented. But, clearly, we have to invest 
in these types of efforts because if we are silent, then the 
only message they hear is the radical ones, the ones that 
encourage. We have to have something on the other side to 
counter that, the violent extremist message. The more effective 
we can do that, the better off we are all going to be.
    Mr. Cohen, let me start with you, and then Ms. Pandith, 
maybe you would want to comment as well. But in your testimony, 
you mentioned that the number of hate groups have been dropping 
in the last couple of years, and you posit that it is partly as 
a result of individuals moving out of groups and into 
cyberspace. As more and more radicalization takes place on the 
web, of course, it may be more difficult for DHS and other 
agencies to engage with communities in a traditional manner, 
what advice do you give the administration on countering 
radicalization on-line, particularly among communities with no 
desire to engage with Government at all?
    Mr. Cohen. Well, I think it is very important for the 
Department of Homeland Security, the Department of Justice, to 
monitor the chatter that is on the net, not just simply the 
chatter that comes from Muslim extremists, but really from 
other forms of extremism. I think it is important to train law 
enforcement officers and so they understand the nature of those 
threats.
    I am a little skeptical about the ability to put in kind-of 
counternarratives on-line aimed at non-jihadi or non-Islamic 
domestic extremists. I think they are kind of a counterculture. 
I think Ms. Pandith is right, sometimes hearing from former 
extremists will help them. I do think that it is a larger 
problem, again, with our educational programs, our churches. I 
think there is a tremendous backlash that is going on in this 
country to our changing demographics. Going through--we are 
going through big changes, and a lot of people are, you know, 
reacting to that. I think in the long run, the answers are, you 
know, going to be found in our churches and in our schools, 
quite frankly.
    Mr. Langevin. Thank you.
    Mr. Hughes. I would just jump in. I interviewed a kid, a 
22-year-old kid, from Virginia named Zack Chester, who is 
currently spending 25 years at Supermax for trying to join a 
terrorist group, al-Shabaab, in Somalia. I said Zack, normal 
kid, nice family, good upbringing.
    I asked him, I said: Zack, how did you get here? How did 
you become radicalized? Did someone try to pull you out of it?
    His quote was something along the lines of: You know, one 
person briefly pulled me away, but the pull of the internet was 
too strong.
    So he had this echo chamber, right. He had people telling 
him, what you are thinking is right, what you're thinking is 
right, what you're thinking is right, and nobody else was 
coming in to throw in another view. You walked yourself off to 
only agree with people that agree with you. So I think we need 
to figure out a way to kind-of pierce that circle, or we are 
going to have more kids like Zack Chester.
    Ms. Pandith. The only other thing I would say is that the 
greatest strength of America is the ability for us to pull 
coalitions together. We do that really, really well. There are 
very few countries in the world that are able to match our 
skill at doing that. So when you ask the question, what advice 
do we have, and how does the Government bring people together 
that may not want to talk with us? There are different layers 
of that. So when you think about the coalitions that could be 
built that can actually interface with communities that may not 
want a direct contact with the United States Government but do 
have trust with other parts of that community through the 
coalitions, it is a start, and it opens up the conversation.
    Things don't happen overnight, sir, and you know that as 
well as I do. But what we have seen around the world and which 
groups and in our country too that are nervous about their own 
Government, that are nervous about why people are wanting to 
talk to them, they might be more willing to have some quiet 
conversations with people that they are comfortable with before 
they get in front of sort of a larger audience.
    Mr. Langevin. Thank you.
    You know, in all of your testimony, you make reference to 
the use of technology, both as an avenue for radicalization and 
a tool for countermessaging. Do you believe that current CVE 
efforts make adequate use of technology? How can we better 
leverage technology in attempting to identify and counter 
extremist messages?
    Ms. Pandith. Our ideas are stale. They are uneven, and 
Government is not equipped to keep up with the millennials that 
are using technology, and things are changing at a very fast 
pace. So when I think about sort-of the right personnel and how 
we do things, we were talking about the messaging center. You 
know, it would be ridiculous for the American Government not to 
try to do something. But you cannot keep up with the pace of 
the kind of machinery, the social media machinery, that is out 
there, which means that you need surrogates to be able to do 
this in a more real way without the seal of the United States 
State Department at the end of every video.
    Mr. Langevin. Anyone else?
    Mr. Hughes. For the domestic context, I don't think there 
has been much movement on social media efforts on that. You 
have had ebbs and flows when it comes to bringing in social 
media providers to help do trainings for communities that 
interested in this.
    On the other hand, there is other ways to do technology. So 
that community awareness briefing right now is a PowerPoint 
presentation. There is no reason why it can't be an app, it 
can't be interactive, and things like that. We can scale up on 
those types of things very easily.
    Mr. Langevin. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. Mr. Loudermilk is recognized.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    Thanks to the panel.
    I have just got a couple of real quick questions, coming in 
at the end of this thing.
    First of all, let me say, Mr. Chairman, I appreciate you 
bringing this bill forward. In response to some of the 
criticism that I have heard just in the brief time I have been 
here, I have attended numerous, numerous, numerous briefings 
inside the SCIF, inside of this room, and inside of other rooms 
that I know every Member has been invited to, and quite often, 
there is only a handful of Members in there. Whether it was 
specifically about CVE, whether it was about countering 
terrorism, CVE became an issue that we have been dealing with 
since I have been in this Congress. This is nothing new. It is 
something that we have talked about over and over and over 
again. When you look at the number of arrests, the number of 
terrorist attacks, the number of investigations, the number of 
those that are traveling to join extremist organizations, this 
is a very dangerous time that we are taxing our law 
enforcement. Our counterterrorism officials are being taxed. 
They are doing a tremendous job. I can't believe how well a job 
that they are doing to protect us in the way that they have. 
But we are seeing more and more incidents because of the 
recruiting because of the extremism that we are seeing, the 
converging of youth. We must do something, and we must do it 
now. So the idea that this is all of a sudden something that 
has popped up with one hearing is just unbelievable.
    So, my question to Ms. Pandith, Mr. Hughes, if we pass this 
legislation, and we start moving in this direction to actually 
have a viable, workable, CVE effort in this Nation, how long 
would it take for us to get everything up and running and 
actually begin to start hopefully seeing results? I know it is 
hard to measure this, but we have got to provide some relief to 
our law enforcement by stopping the radicalization process, 
which would take away at least the inventory of some of those 
who would perpetrate these.
    Ms. Pandith. So, obviously, it is super-hard to answer that 
question in terms of time frame. Appointing a one-stop shop in 
the Government to do this doesn't mean that we are turning the 
switch and everything is going to be okay, obviously.
    But I will say to you, that it will help us to look at the 
full map of all the things that we have done. We have not done 
a mapping exercise. We have not assessed everything the United 
States has done on that conveyer belt toward the recruitment 
and how to stop it from happening. So getting eyes around that, 
the way you have a general looking at a physical plan in terms 
of a battle, we need that kind of rigor and respect in that 
space around the ideological piece. So how long will it take? I 
can't answer that question, but I know that having that kind of 
uniform approach, getting our ducks in a row, and making people 
accountable is going to go a long way to get us to where we 
need to be.
    Mr. Loudermilk. Without this, in your opinion, we would not 
get any closer to actually putting together a viable CVE 
effort, which is basically nonexistent at this point?
    Ms. Pandith. I think you have to have direction and a real, 
real strategy on what we are doing around this and understand 
what it is we have done, and really understand, as I said, the 
mapping exercise of what is it that we have done, where are the 
black holes, and what is it we need to do and somebody 
accountable for all of that--all of those pieces.
    Mr. Loudermilk. Mr. Hughes, do you have anything to add?
    Mr. Hughes. I would agree with every point that Farah made. 
I would also say that from the domestic context, you know, 
right now, we have the departments and agencies beg, borrowing, 
and stealing wherever they could in order to get personnel and 
ideas from it. You have a coalition of folks who deeply care 
about this issue and don't want the only example only way to 
solve an issue about terrorism to be the hard tactics, but it 
is just that small group of people that are desperately trying 
to do that. So we need to figure out a way to empower them to 
be able to have these type of conversations so we can move away 
from--you know, hard tactics are going to always be there, 
always going to be bad guys that we are going to have to do 
what we do on that. But there is a whole spectrum of activity 
before that where we could do something if given the right 
direction and budget.
    Mr. Loudermilk. Yes, ma'am.
    Ms. Pandith. Just one other thing. One element here we 
haven't talked about is the forward thinking. It is not just 
what is happening now and that person who is looking at what we 
are doing right now, but understanding what the threats are 
going to be and how they are going to change. We haven't been 
able to keep up with that. So that is part of this as well.
    Mr. Loudermilk. Mr. Cohen, any reason why we shouldn't?
    Mr. Cohen. Well, the only thing that I would add is the 
idea of a mapping, the idea of taking an inventory of our 
resources, it is obviously a good idea. I just think it ought 
to be extended to the resources that we are devoting to a non-
Islamic extremism.
    Mr. Loudermilk. But you are not opposed to what this bill 
and what we are trying to attempt with it?
    Mr. Cohen. I am not sure I can speak to that completely. I 
do think it is important to hear from the Department of 
Homeland Security about its views about this. I think it is 
important to deal with the privacy concerns as well.
    Mr. Loudermilk. Okay. Thank you.
    I yield back.
    Chairman McCaul. Let me thank the witnesses. It has been a 
very healthy and informative discussion, and I appreciate your 
patience with some of the in-fighting, which we normally don't 
have on this committee, but unfortunately, today we did. But it 
is a very important issue. It needs to be a priority. I don't 
think, as Mr. Hughes says, we can afford to wait any longer, 
which is why we are moving forward today with this.
    I just can't thank you all enough for being here. The 
Members may have questions in writing, and I would ask that you 
respond to those. The record will be open for 10 days.
    Just to note for the Members, we are going to take a break 
now because we will be voting in about 10 minutes, and then, 
after the votes series, we will return for the mark-up.
    Thank you again. This hearing stands adjourned.
    [Whereupon, at 1:10 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
